S          ummary


R            eport

     DOD PURCHASE CARD PROGRAM AUDIT COVERAGE



Report No. D-2002-029               December 27, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this summary report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support Directorate
  at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
DASC                  Defense Logistics Agency Administrative Support Center
DLSC                  Defense Logistics Supply Center
DOCCR                 Defense Logistics Agency Office of Counsel, Columbus Region
DSCC                  Defense Supply Center Columbus
IMPAC                 International Merchant Purchase Authorization Card
NAF                   Non-Appropriated Funds
                        Office of the Inspector General, DoD
Report No. D-2002-029                                                 December 27, 2001
   (Project No. D2001PA-0185.000)

         Summary of DoD Purchase Card Program Audit Coverage

                                    Executive Summary

Introduction. A July 2001 Congressional hearing highlighted the need to ensure proper
oversight of the DoD purchase card program. We prepared this summary report at the
request of the Director, Defense Procurement to provide a central repository of purchase
card audit report findings and to identify misuse trends and problems. After we initiated
this project, the Senate Committee on Finance also requested details on audit reports on
the use of credit cards in DoD. The purchase card is a Government-wide commercial
credit card used to purchase goods and services. The purchase card is a less costly and
more efficient way for offices and organizations to buy needed goods and services
directly from vendors. As of September 2001, DoD had 231,856 purchase cardholders.
The DoD Purchase Card Program Management Office reports that in FY 2001, DoD
made approximately 10.6 million purchases valued at $6.1 billion using the purchase
cards. The purchase card eliminates the need to process purchase requests through
procurement offices and avoids the administrative and documentation requirements of
traditional contracting processes.

Objective. The objective of the report was to summarize audit coverage of the DoD
purchase card program. See Appendix A for a discussion of the scope and methodology.

Results. From FY 1996 through FY 2001, 382 reports were issued on the DoD Purchase
Card Program. The General Accounting Office issued 3 reports; the Inspector General,
DoD issued 3 reports; the Army Audit Agency issued 32 reports; the Naval Audit Service
issued 1 report; the Air Force Audit Agency issued 255 reports; the Defense Agencies
Inspector General and Internal Review Offices issued 27 reports; and the Army Internal
Review Office issued 61 reports. The reports address the following systemic issues:

     •   Account Reconciliation and Certification (88 reports)

     •   Administrative Controls (70 reports)

     •   Management Oversight (115 reports)

     •   Property Accountability (79 reports)

     •   Purchase Card Use (50 reports)

     •   Purchases (222 reports)

     •   Separation of Duties (22 reports)

     •   Training (52 reports)
Because of its dollar magnitude, the purchase card program is an area requiring continued
management emphasis, oversight, and improvement by DoD. Independent internal audits
should continue to be an integral component of management controls. For details on the
reports, see the Finding section of the report.

Recent DoD Actions. The DoD Purchase Card Program Management Office recognized
the need to address management oversight and control issues in a July 25, 2001,
memorandum to the Military Departments and Defense Agencies. The memorandum
stated that it was imperative to allocate appropriate resources so program officials could
perform their duties and requested that organizations conduct an assessment of the
policies and guidelines that are in effect. The Director, Defense Procurement reiterated
the essential controls needed to establish and maintain a reliable purchase card program
at the activity level in an August 13, 2001, memorandum.

On August 14, 2001, the Director, Defense Procurement requested that the Inspector
General, DoD, provide central coordination of future purchase card audits. In response,
the Inspector General, DoD established a new audit planning subgroup on purchase cards
to provide centralized oversight and monitor the audit work of the DoD audit community.
In addition, the DoD Purchase Card Program Management Office requested on
October 5, 2001, that the joint fraud detection and prevention program expand its
program to formally include purchase card transactions and associated dollars,
specifically data mining efforts conducted by the Inspector General, DoD and the Air
Force Audit Agency.




                                            ii
Table of Contents

Executive Summary                                i


Introduction
     Background                                 1
     Objective                                  2

Finding
     DoD Purchase Card Program Audit Coverage    3

Appendixes
     A. Scope and Methodology                   10
     B. Reports on the Purchase Card Program    11
     C. Matrix of Systemic Issues               46
     D. Report Distribution                     56
Background
           The U.S. House of Representatives Committee on Government Reform
           (Subcommittee on Government Efficiency, Financial Management and
           Intergovernmental Relations) oversight hearing on the Use and Abuse of
           Government Purchase Cards, July 30, 2001, highlighted the need to ensure proper
           oversight of the DoD purchase card program. We prepared this summary report
           at the request of the Director, Defense Procurement to provide a central repository
           of purchase card audit report findings and to identify misuse trends and other
           problems. After we initiated this project, the Senate Committee on Finance also
           requested details on audit reports on the use of credit cards in DoD.

           Senate Armed Services Committee Concerns. Based on the testimony of the
           oversight hearing, the Senate Armed Services Committee expressed concerns
           about the internal controls on the use of credit cards. Credit cards play an
           important role in streamlining the procurement system and eliminating unneeded
           paperwork; however, streamlined purchase techniques such as purchase cards can
           also be abused in the absence of appropriate internal controls and management
           attention. In Senate Report 107-62 for the National Defense Authorization Act
           for Fiscal Year 2002, the Committee on Armed Services directed the Department
           of Defense to review this issue and take action to ensure that appropriate internal
           controls for credit card purchases are in place throughout the Department and to
           ensure that DoD cardholders and their managers are fully trained and aware of the
           importance of compliance with these policies and procedures.

           Purchase Card Use. The use of purchase cards was first introduced in the
           Federal Government in the early 1980s. The General Services Administration
           awarded the first Government-wide purchase card contract in 1989. At that time,
           the purchase card was referred to as the International Merchant Purchase
           Authorization Card (IMPAC). In 1998, the purchase card contracts were awarded
           to five banks as part of the SmartPay program.1 The Vice President’s National
           Performance Review identified the purchase card as a major acquisition reform in
           1993 and recommended that all Federal agencies increase their use of the card to
           cut the red tape normally associated with the Federal procurement process.

           The Federal Acquisition Streamlining Act of 1994 established $2,500 as the
           micro-purchase threshold and eliminated most of the procurement restrictions for
           purchases identified within that threshold. Executive Order 12931, “Federal
           Procurement Reform,” October 13, 1994, directed agencies to expand the use of
           credit cards and delegate micro-purchase authority to program officials. In 1995,
           the Federal Acquisition Regulation designated the purchase card as the preferred
           method to pay for micro-purchases.

           Purchase Card Benefits. The purchase card is a Government-wide commercial
           credit card available to individual offices and organizations for the purchase of
           goods and services. The purchase card is a less costly and more efficient way for
           offices and organizations to buy needed goods and services directly from vendors.

1
    The SmartPay program includes the Government purchase, travel, and fleet credit cards.

                                                      1
    The purchase card eliminates the need to process purchase requests through
    procurement offices and avoids the administrative and documentation
    requirements of traditional contracting processes. The DoD Purchase Card
    Program Management Office reports that in FY 2001, DoD cardholders made
    approximately 10.6 million purchases valued at $6.1 billion using the purchase
    cards.

    DoD Purchase Card Goal. Public Law 105-85, “National Defense
    Authorization Act for FY 1998,” required that at least 60 percent of all eligible
    DoD micro-purchases be made using the purchase card by October 1, 1998. In
    addition, the DoD purchase card goal, Acquisition Goal 3, required that DoD use
    the purchase card for 90 percent of its micro-purchases by the year 2000. The
    DoD Purchase Card Program Management Office reported that DoD had reached
    its goal by the end of FY 1999, with over 91 percent of micro-purchases being
    obtained by using the purchase card.

Objective
    The objective of the report was to summarize audit coverage of the DoD purchase
    card program. See Appendix A for the discussion of scope and methodology.




                                        2
           DoD Purchase Card Program Audit
           Coverage
           Over the past 6 years, the General Accounting Office and DoD audit
           organizations issued 382 reports on the DoD Purchase Card Program. The
           General Accounting Office issued 3 reports; the Inspector General, DoD
           issued 3 reports; the Army Audit Agency issued 32 reports; the Naval
           Audit Service issued 1 report; the Air Force Audit Agency issued
           255 reports; the Defense Commissary Agency Internal Review Office
           issued 1 report; the Inspector General, Defense Information Systems
           Agency issued 2 reports; the Defense Logistics Agency Internal Review
           Office issued 24 reports; and the Assistant Secretary of the Army
           (Financial Management and Comptroller) Internal Review Office issued
           61 reports. A review of the reports (see Appendix B) disclosed the
           following systemic issues:

               •   Account Reconciliation and Certification (88 reports)

               •   Administrative Controls (70 reports)

               •   Management Oversight (115 reports)

               •   Property Accountability (79 reports)

               •   Purchase Card Use (50 reports)

               •   Purchases (222 reports)

               •   Separation of Duties (22 reports)

               •   Training (52 reports)

Purchase Card Program Responsibilities
    Purchase Card Program Responsibilities. The Under Secretary of Defense for
    Acquisition, Technology, and Logistics is responsible for purchase card policy
    and oversight, in coordination with the Under Secretary of Defense (Comptroller)
    on related finance and accounting policy matters. In March 1998, the Deputy
    Secretary of Defense established the DoD Purchase Card Program Management
    Office to provide a centralized program management structure over the purchase
    card program. The Program Management Office is in the office of the Assistant
    Secretary of the Army for Acquisition, Logistics, and Technology, and has
    established department-wide policies and procedures governing the use of
    purchase cards. As of September 2001, DoD had 231,856 purchase cardholders.




                                           3
Systemic Issues
     We defined systemic issues as problems that were reported in 10 or more reports.
     Appendix B lists all the reports reviewed, and Appendix C contains a matrix of
     the issues addressed in each report.

     Account Reconciliation and Certification. Problems with the monthly
     account reconciliation and certification reviews were discussed in 88 reports.
     Certification reviews are intended to validate all transactions as proper and are to
     be performed in a timely manner; thus minimizing the risk of fraud and ensuring
     funds are spent for official purposes. DoD is obligated to pay Prompt Payment
     Act interest on any invoice that is not paid within 30 days of receipt by the
     designated billing office. Examples of reported problems follow.

            •   One activity paid $24,350 in interest charges on late accounts from
                July 1994 to February 1998. Certifying officials were late certifying
                the statements and cardholders did not reconcile the statements
                accurately or timely. The billing office often returned billing account
                statements to the certifying officials for correction, further delaying
                payment (see Appendix B, report 39).

            •   Account reconciliations were inadequate to ensure purchases were
                appropriate and in compliance with guidelines. For example,
                cardholders did not include 12 of 101 purchases (12 percent), valued at
                $5,251 on the purchase card log (see Appendix B, report 92).

            •   Cardholders did not properly reconcile accounts to ensure that charges
                were the same as prices quoted. For example, coupling gaskets were
                purchased, and the cardholder was quoted a price of $80.64 but the
                account statement showed a charge of $112.40 (see Appendix B,
                report 125).

     Administrative Controls. Seventy reports described administrative control
     problems. Administrative controls should ensure that cardholders are approved
     and make appropriate purchases within set limits. Examples of reported problems
     follow.

            •   Cardholders did not always maintain the required administrative
                documentation in their file. For example, a review of 34 cardholder
                files disclosed that 18 did not have a delegation of authority in their
                files, and 19 did not have the cardholder instructions in their files (see
                Appendix B, report 77).

            •   The program coordinator assigned merchant activity codes to
                functional organization cardholders that were either not appropriate, or
                were not rescinded after the “one time” need occurred. For example,
                5 of 37 cardholders had at least one merchant category code that was
                not applicable to purchases for the organization. In addition, the
                program coordinator did not rescind codes assigned temporarily to

                                           4
           cardholders that requested specific authorized purchases outside of
           their functional organization authority for a specific time period (see
           Appendix B, report 56).

Management Oversight. This issue was discussed in 115 reports. Cardholder
account reviews ensure that money obligated for assets was used or deobligated.
Management oversight also ensures that cardholders establish and maintain
sufficient records to support card purchases and deter card misuse. Examples of
reported problems follow.

       •   Cardholder accounts were not reviewed to determine if all charges had
           been billed and cardholders did not inform the resource advisors when
           all year-end purchases were billed and paid. For example, one unit
           had established five obligations with a combined balance of $28,338 to
           pay year-end purchases. However, the unit only purchased $10,697,
           which means staff could have deobligated $17,641 and used the funds
           for other requirements (see Appendix B, report 82).

       •   The program coordinator did not accomplish annual reviews in
           FY 2000 for 33 of 37 cardholders or any of the 21 approving officials
           at one activity. Additionally, none of the current cardholders were
           reviewed within 90 days of being appointed a cardholder, as required
           by regulations (see Appendix B, report 56).

       •   Three billing officials attested to the accuracy of information provided
           to the certifying officer in support of the payments to the bank for
           4,831 transactions valued at $1,386,003 without first-hand knowledge
           of the purchases or the disposition of the assets. Billing officials relied
           on cardholders to self-certify that purchases, including pilferable items
           such as sleeping bags, tools, individual equipment, auto parts, and
           recreation vehicle repairs, were for valid mission requirements rather
           than for personal use. This verification is a key internal control to
           prevent unauthorized or improper purchases and ensure purchased
           assets are not misappropriated (see Appendix B, report 63).

Property Accountability. In 79 reports, auditors reported inadequate controls
over accountable property purchased using the credit cards. Property book
officers were not notified of the purchases; therefore, the related property records
were not updated to reflect the purchases. Properly applied property
accountability controls decrease the potential for loss. Examples of reported
problems follow.

       •   Cardholders purchased items such as artwork, toasters, televisions, and
           mirrors, that should have been included on the inventory listing to
           guard against pilferage (see Appendix B, report 299).

       •   Cardholders did not establish accountability for computer equipment
           purchased with the purchase card at a cost of $21,051. Specifically,
           staff did not record 6 of 14 computer items purchased in the inventory
           system. Cardholders used their unit address as the “ship to” address


                                      5
           on orders rather than the manager’s “ship to” address. Thus, the
           manager did not receive computer equipment purchased, and
           accountability was not established (see Appendix B, report 44).

Purchase Card Use. Fifty reports described activities not using the purchase
card to the maximum extent possible. Using the purchase card streamlines
payment procedures and reduces the administrative burden associated with
traditional and emergency purchasing of supplies and services. Examples of
reported problems follow.

       •   Twenty-six of 51 contracts awarded during FY 1997 and FY 1998 at
           one activity could have used the purchase cards as a method of
           procurement (see Appendix B, report 39).
       •   Three of the 36 blanket purchase agreements reviewed could have
           used the purchase card to pay for purchases instead of direct billing to
           reduce administrative billing costs, promote efficiency and economy in
           contracting, and provide faster payment to the contractor. Not using
           the purchase card cost the Air Force an estimated $4,725 in additional
           payment processing costs (see Appendix B, report 68).

Purchases. In 222 reports, the auditors reported cardholders made unauthorized
purchases. The problem purchases include unapproved purchases, split purchases
(the intentional breaking down of a known requirement to stay within a
threshold), and undocumented purchases. Proper authorization of purchases
ensures that funds are only used to obtain necessary and proper items at the best
value to the Government. Examples of reported problems follow.

       •   One cardholder made eight unauthorized purchases, some delivered to
           his home, totaling $3,988 between December 1997 and March 1999.
           The purchases included pens, binoculars, a home theater system, a
           personal computer and cart, and membership to a discount club.
           Management took action during the audit to suspend the purchase
           authority of the cardholder. Subsequently, at Court Martial, the
           suspect was found guilty of larceny (see Appendix B, report 112).

       •   Cardholders did not obtain or document the required approval in 33 of
           68 instances. For example, one unit made nine purchases valued at
           $56,324 for items such as computers and printers without obtaining
           approval from the controlling agency (see Appendix B, report 76).

       •   Cardholders split one or more purchases. For example, one cardholder
           made three purchases of office furniture  each less than $2,500 but
           together totaling $5,331 from one vendor on the same day (see
           Appendix B, report 77).




                                    6
       •   Cardholders purchased items costing $38,000 without prior approval.
           These items were used to furnish an employee break room. A
           purchase card was used to pay for a game area, big screen television
           with satellite dish, large brick bar area, brick eating/sitting area
           complete with a brick fountain, and a 20-foot tall clock tower (see
           Appendix B, report 154).

       •   One cardholder purchased six television sets totaling $2,371 from one
           vendor, and two more identical television sets totaling $739 from
           another vendor on the same day. If purchased as one transaction, the
           total would have been $3,110 or $610 more than the purchase limit of
           $2,500 (see Appendix B, report 108).

Separation of Duties. Twenty-two reports contained issues related to separation
of duties. Separation of duties is an internal control to prevent errors or attempts
at fraud or embezzlement from going undetected. Key duties such as authorizing,
approving, and recording transactions; issuing or receiving assets; making
payments; and reviewing or auditing should be assigned to separate individuals to
minimize the risk of loss to the Government. Examples of reported problems
follow.

       •   One activity had no separation of duties in the approval process for
           purchase card requisitions. During a one year period, 775 requisitions
           totaling $124,223 were processed on which an individual acted as
           requestor (recording), department approver (authorizing), and
           cardholder (processing) (see Appendix B, report 39).

       •   The Comptroller at one activity was also an assigned billing official,
           thereby combining responsibilities to authorize, process, record, and
           review transactions (see Appendix B, report 53).

Training. Problems related to training were discussed in 52 reports. Cardholder
training is essential to ensuring proper use of the card. Examples of reported
problems follow.

       •   The program coordinator did not provide the cardholder training
           required by Air Force guidance. Areas not covered during training
           included blanket purchase agreements, competition and price
           reasonableness, purchase of non-medical equipment, warranties,
           established contracts, and purchase card policies and procedures (see
           Appendix B, report 94).

       •   Cardholders received appropriate training but approving officials did
           not receive the more extensive training required. The additional
           training included the requirements for simplified purchase procedures
           and the associated management controls (see Appendix B, report 24).




                                     7
Recently Issued Guidance
    The DoD Purchase Card Program Management Office recognized the need to
    address these issues in a July 25, 2001, memorandum to the Military Departments
    and Defense Agencies. The memorandum states that it is imperative to allocate
    appropriate resources so program officials could perform their duties. The
    memorandum also states that a breakdown of controls usually takes place if
    program coordinators at the base or installation level are assigned responsibility
    for the card program as a collateral duty. The DoD Purchase Card Program
    Management Office also requested that organizations conduct an assessment of
    the policies and guidelines that are in effect to assist commanders and directors in
    the proper allocation of resources to the purchase card program.

    In an August 13, 2001, memorandum, the Director, Defense Procurement
    requested that DoD components ensure that essential controls are observed for a
    reliable purchase card program. The following controls were emphasized.

           •   Billing officials/approving official must review the cardholder's billing
               statement every month to verify that the cardholder was authorized to
               buy the items, and that the items were received.

           •   All pilferable items, and other qualifying items, are properly recorded
               on Government property records.

           •   Only staff with a continuing need to purchase goods or services should
               be cardholders.

           •   Not every cardholder needs to have the maximum transaction or
               monthly limit. Supervisors should set reasonable limits, based on what
               the person needs to buy as part of their job.

           •   The billing or approving official should be the cardholder's direct
               supervisor. Each billing official should be responsible for a reasonable
               number of cardholders so the official can completely review the
               monthly billing statements within 5 days after receipt.

           •   The same person should not buy and receive the item.

           •   Rebates earned must be obtained.

Conclusion
    The 382 reports issued from October 1, 1995, to September 30, 2001, identified
    problems related to the integrity of some cardholders, internal control weaknesses
    or noncompliance, and opportunities for expanded use of purchase cards.
    Because of its dollar magnitude and the number of cardholders, the purchase card
    program is an area requiring continuing management, emphasis, oversight, and


                                         8
improvement by DoD. Continued audit coverage is needed of the purchase card
program to maintain its credibility with Congress and the American Public as a
cost efficient method of procurement.

On August 14, 2001, the Director, Defense Procurement requested the Inspector
General, DoD, to provide central coordination of future purchase card audits and a
central repository of audit findings relating to the DoD purchase card. In
response, the Inspector General, DoD, established a new audit planning subgroup
on purchase cards to provide centralized oversight and monitor the audit work of
the DoD audit community. The Inspector General, DoD, will also provide the
Director, Defense Procurement with a summary of the audit agency reports on the
purchase card issued each quarter. In addition, the DoD Purchase Card Program
Management Office requested on October 5, 2001, that the joint fraud detection
and prevention program expand its program to formally include purchase card
transactions and associated dollars, specifically data mining efforts conducted by
the Inspector General, DoD, and the Air Force Audit Agency.




                                    9
Appendix A. Scope and Methodology
           This report summarizes DoD purchase card program audit coverage from
           October 1, 1995, to September 30, 2001. We identified 382 reports issued by the
           General Accounting Office; the Inspector General, DoD; the Army Audit Agency;
           the Naval Audit Service; the Air Force Audit Agency; the Defense Commissary
           Agency Internal Review Office; the Inspector General, Defense Information
           Systems Agency; the Defense Logistics Agency Internal Review Office; and the
           Office of the Assistant Secretary of the Army (Financial Management and
           Comptroller) Internal Review Office.1 The reports were analyzed to determine
           systemic weaknesses.

           Use of Computer-Processed Data. We did not use computer-processed data in
           our review.

           Contacts. We visited or contacted individuals and organizations within DoD.
           Further details are available upon request.




1
    The review of the Assistant Secretary of the Army, (Financial Management and Comptroller) Internal
    Review Office reports does not include the first half of FY 1996 or the second half of FY 2001.




                                                     10
Appendix B. Reports on the Purchase Card
            Program

General Accounting Office
    These reports are available on the General Accounting Office home page at
    http://www.gao.gov.

    1. GAO-01-995T, “Purchase Cards: Control Weaknesses Leave Two Navy
    Units Vulnerable to Fraud and Abuse,” July 30, 2001. The testimony discusses
    internal control weaknesses at two Navy units in San Diego, California. The General
    Accounting Office found a proliferation of purchase cards at the two units in San
    Diego, the Space and Naval Warfare Systems Command and the Navy Public
    Works. More than 1,700 cardholders essentially had the authority to make purchase
    decisions. A serious breakdown in internal controls over the receipt of Government
    property and the certification of monthly statements, coupled with flawed or
    nonexistent policies and procedures and the failure of Navy employees to adhere to
    valid policies and procedures, led to the loss, theft, and misuse of Government
    property; the potential abuse of purchase cards; and payments of potentially
    fraudulent charges. Five fraud cases have already been identified, and the
    Government remains extremely vulnerable to fraud, waste, and abuse arising from
    the purchase card program at the two Navy units. The General Accounting Office
    expects to issue a report with specific recommendations.

    2. GAO/NSIAD-00-108, “Defense Management: Electronic Commerce
    Implementation Strategy can be Improved,” July 18, 2000. The report stated that
    one of the key initiatives to expand the use of purchase cards to streamline aspects of
    the procurement process was successfully implemented. The DoD Purchase Card
    Program exceeded the Department’s reform goals, but DoD is still seeking ways to
    improve and expand the program. The report contained no findings or
    recommendations on the purchase card program.

    3. GAO/NSIAD-96-138, “Acquisition Reform: Purchase Card Use Cuts
    Procurement Cost, Improves Efficiency,” August 6, 1996. The report stated that
    there is significant potential for the purchase card program to grow and, while
    purchase card use has increased, no evidence of increased abuse was found.
    However, the report stated the Federal Acquisition Regulation does not provide
    guidance on usage of the card comparable to the guidance provided for imprest
    funds, purchase orders, and blanket purchase agreements. The report recommended
    that clear guidance on the appropriate uses of the purchase card be included in the
    Federal Acquisition Regulation, and an electronic web site be established to
    exchange information about problems or progress with purchase card use.




                                          11
Inspector General, DoD
    These reports are available on the Inspector General, DoD home page at
    http://www.dodig.osd.mil.

    4. Report No. D-2000-159, “U.S. Joint Forces Command Comptroller Division
    Operations,” July 12, 2000. The report stated that the processes for the purchase
    card program were adequate. There were no recommendations on the purchase card
    program.

    5. Report No. 99-129, “Use of the International Merchant Purchase
    Authorization Card,” April 12, 1999. The report stated that the DoD Purchase
    Card Program Manager recognized the need for additional guidance to ensure that
    DoD goals were reached for the use of the purchase card. While the majority of
    reduced costs from the purchase card come from streamlining the acquisition
    process, reductions in Defense Finance and Accounting Service operating costs can
    also be achieved by reducing invoice payments for purchases that can be made with
    the purchase card. The needed guidance was issued and should result in expanded
    use of the purchase card and a significant reduction in the number of invoice
    payments. Further, the report stated that DoD use of the purchase card was
    increasing, and individual invoice payments for purchases that could have been made
    with the purchase card were decreasing. The report contained no recommendations.

    6. Report No. 96-201, “Small Purchases at Defense Logistics Agency
    Organizations,” July 29, 1996. Contracting officers awarded purchase orders for
    small purchases when the International Merchant Purchase Authorization Card could
    have been used for the purchases. Consequently, the Defense Logistics Agency
    incurred about $7.4 million in excess costs to award purchase orders. In addition,
    there was no assurance the items that were charged to the credit card were purchased
    by the actual cardholders or that the items were needed and received. The report
    recommended the Defense Logistics Agency issue guidance on approving and
    documenting purchases made with the card, use a standard form to control and
    document the purchases, and review simplified acquisition procedures as part of the
    management control program self-evaluation. Management concurred and published
    a directive and standard form to control and document card purchases.

Army Audit Agency
    These reports are available on the Army Audit Agency home page at
    http://www.aaa.army.mil.

    7. Report No. AA 01-221, “225th Army Birthday/Spirit of America,” March 26,
    2001. The Military District of Washington staff had effective controls to ensure that
    purchases made with the Government credit card were properly authorized and did
    not exceed the regulatory transaction dollar limit of $2,500. There were no
    recommendations made on the purchase card program.

    8. Consulting Report No. AA 00-780, “ Review of Credit Card Purchases, US
    Army Special Operations Command,” July 14, 2000. This consulting report
    summarizes the results of 14 activities reviewed at the Special Operations Command.

                                         12
Some cardholders needed to improve their process for identifying and accounting for
non-expendable property. The report suggested that cardholders (i) process the
required equipment form through the property book officer prior to using the
purchase card and (ii) annotate the serial number of equipment items on the purchase
card receipt to help identify the equipment item. The command took actions to
establish accountability for non-expendable items.

9. Consulting Report No. AA 00-779, “ Review of Credit Card Purchases,
Equal Opportunity Office, US Army Special Operations Command,” July 14,
2000. Cardholders within the Equal Opportunity Office maintained adequate credit
card files and did not purchase any non-expendable property during the period. The
report contained no suggested actions.

10. Consulting Report No. AA 00-778, “Review of Credit Card Purchases,
Internal Review, US Army Special Operations Command,” July 12, 2000.
Cardholders within the Internal Review Office maintained adequate credit card files
and did not purchase any non-expendable property during the period. The report
contained no suggested actions.

11. Consulting Report No. AA 00-777, “Review of Credit Card Purchases,
Inspector General, US Army Special Operations Command,” July 12, 2000.
Cardholders within the Inspector General Office maintained adequate credit card
files and did not purchase any non-expendable property during the period. The
report contained no suggested actions.

12. Consulting Report No. AA 00-776, “Review of Credit Card Purchases,
Safety Office, US Army Special Operations Command,” July 12, 2000.
Cardholders within the Safety Office maintained adequate credit card files and did
not purchase any non-expendable property during the period. The report contained
no suggested actions.

13. Consulting Report No. AA 00-775, “Review of Credit Card Purchases,
Deputy Chief of Staff, Engineer, US Army Special Operations Command,”
July 12, 2000. Cardholders within the Engineer’s Office properly reported non-
expendable property to the property book officer and it was adequately accounted
for. The report contained no suggested actions.

14. Consulting Report No. AA 00-774, “Review of Credit Card Purchases,
History, Archives, Library and Museums Office, US Army Special Operations
Command,” July 12, 2000. Cardholders within the History, Archives, Library and
Museums Office maintained adequate credit card files and did not purchase any non-
expendable property during the period. The report contained no suggested actions.

15. Consulting Report No. AA 00-773, “Review of Credit Card Purchases,
Surgeon, US Army Special Operations Command,” July 11, 2000. Cardholders
within the Surgeon’s Office needed to improve their process for identifying and
accounting for non-expendable property. The report suggested that cardholders
process the required equipment form through the property book officer prior to using
the purchase card and annotate the serial number of equipment items on the purchase
card receipt.



                                     13
16. Consulting Report No. AA 00-772, “Review of Credit Card Purchases,
Deputy Chief of Staff, Logistics, US Army Special Operations Command,”
July 11, 2000. Cardholders within the Logistics Office needed to improve their
process for identifying and accounting for non-expendable property. The report
suggested that cardholders process the required equipment form through the property
book officer prior to using the purchase card and annotate the serial number of
equipment items on the purchase card receipt.

17. Consulting Report No. AA 00-771, “Review of Credit Card Purchases,
Public Affairs Office, US Army Special Operations Command,” July 11, 2000.
Cardholders within the Public Affairs Office needed to improve their process for
identifying and accounting for non-expendable property. The report suggested that
cardholders process the required equipment form through the property book officer
prior to using the purchase card and annotate the serial number of equipment items
on the purchase card receipt.
18. Consulting Report No. AA 00-770, “Review of Credit Card Purchases,
Secretary General Staff, US Army Special Operations Command,” July 11,
2000. Cardholders within the Secretary General Staff Office needed to improve their
process for identifying and accounting for non-expendable property. The report
suggested that cardholders process the required equipment form through the property
book officer prior to using the purchase card and annotate the serial number of
equipment items on the purchase card receipt.

19. Consulting Report No. AA 00-769, “Review of Credit Card Purchases,
Deputy Chief of Staff, Operations, US Army Special Operations Command,”
July 10, 2000. Cardholders within the Operations Office needed to improve their
process for identifying and accounting for non-expendable property. The report
suggested that cardholders process the required equipment form through the property
book officer prior to using the purchase card and annotate the serial number of
equipment items on the purchase card receipt.

20. Consulting Report No. AA 00-768, “Review of Credit Card Purchases,
Deputy Chief of Staff, Special Operations Aviation, US Army Special
Operations Command,” July 10, 2000. Cardholders within the Special Operations
Aviation Office needed to improve their process for identifying and accounting for
non-expendable property. The report suggested that cardholders process the required
equipment form through the property book officer prior to using the purchase card
and annotate the serial number of equipment items on the purchase card receipt.

21. Consulting Report No. AA 00-767, “Review of Credit Card Purchases,
Headquarters and Headquarters Company, US Army Special Operations
Command,” July 10, 2000. Cardholders within Headquarters and Headquarters
Company needed to improve their process for identifying and accounting for non-
expendable property. The report suggested that cardholders process the required
equipment form through the property book officer prior to using the purchase card
and annotate the serial number of equipment items on the purchase card receipt.

22. Consulting Report No. AA 00-766, “Review of Credit Card Purchases,
Deputy Chief of Staff, Information Management, US Army Special Operations
Command,” July 10, 2000. Cardholders within the Information Management
Office needed to improve their process for identifying and accounting for non-

                                     14
expendable property. The report suggested that cardholders process the required
equipment form through the property book officer prior to using the purchase card
and annotate the serial number of equipment items on the purchase card receipt.

23. Report No. AA 00-194, “Equipment Purchased Through Contracts, U.S.
Army Special Operations Command,” April 28, 2000. The report stated that
93 (9 percent) of 1,022 equipment items purchased (39 contract and 30 credit card
purchases) were not recorded on the property book. The property book office did not
establish accountability of the items because command staff did not submit receiving
documents to the property book officer. As a result, command did not have
accountability over equipment valued at $732,000. The report recommended placing
additional emphasis on property accountability during the training program for credit
card approving officials and cardholders, conducting the required quarterly reviews
of cardholder accounts, and using management control checklists to control
purchases. Management concurred with the recommendations.
24. Report No. AA 00-28, “Use of International Merchant Purchase
Authorization Cards, Civilian Personnel Operations Center Management
Agency,” November 12, 1999. The Management Agency staff made some
unnecessary purchases, did not fully comply with Army acquisition policies and
limits; and internal management controls were not effective. Cardholders received
appropriate training but approving officials did not receive the more extensive
training required. The additional training included the requirements for simplified
purchase procedures and the associated management controls. The report included
recommendations to enforce purchase card guidance and standing operating
procedures; have cardholders and approving officials retake purchase card training;
and request a followup review of the Management Agency’s purchase card program.
Management concurred with the recommendations.

25. Report No. AA 00-29, “Use of International Merchant Purchase
Authorization Cards, Northeast Civilian Personnel Operations Center,”
November 10, 1999. The purchase cards were generally used appropriately.
However, Northeast Center staff made some unnecessary purchases and did not fully
comply with Army policies. Supervision wasn’t effective to ensure that acquisition
policy was followed, and approving officials did not receive training. The report
recommended that cardholders and approving officials retake purchase card training
and to require cardholders to sign that they reconciled the monthly bank statements.
Management concurred with the recommendations.

26. Consulting Report No. AA 99-772, “ Review of the International Merchant
Purchase Authorization Card Use at the North Central and National Capital
Region Civilian Personnel Operations Centers,” August 9, 1999. The North
Central and National Capital Region Centers appeared to be using the card in
accordance with Army guidance and therefore, the consulting report contained no
suggested actions.

27. Report No. AA 99-168, “Using Credit Cards for Intragovernmental
Purchases,” April 6, 1999. The Army can realize savings and efficiencies by using
the credit card to procure Army military clothing instead of the Personal Clothing
Request Form. The report recommended that the Army implement use of the credit
card at a pilot site for initial testing and implementation. Management concurred
with the recommendation.

                                     15
28. Report No. AA 98-358, “Program Objective Memorandum 98-03
Efficiencies, Using Credit Cards,” September 18, 1998. The auditors determined
if Program Objective Memorandum 98-03 reflected the staff cuts and savings related
to increasing use of the Government’s commercial credit card. By increasing credit
card use, the Assistant Secretary planned to eliminate 76 contracting staff positions
and save about $20.9 million during FY 98 through FY 03. The report stated that
there is reasonable assurance that the credit card efficiency will generate about $19.2
million in savings. The report recommended that the Assistant Secretary reduce the
projected efficiency savings by $1.7 million for space cuts related to base
realignment and closure actions. Management actions were responsive.

29. Report No. AA 98-261, “Followup Audit Savings From Acquisition
Reform,” July 31, 1998. Army activities did not fully implement best practices
when using the credit card and did not realize anticipated savings of about
$10.6 million. The report recommended streamlining and eliminating duplicate
small purchase processes. Management concurred with the recommendation.
30. Report No. AA 97-58, “Savings From Acquisition Reform,” January 7,
1997. The report projected that the Army saved about $155 million in workyears of
effort in FY 96 by using credit cards instead of purchase orders to execute its micro-
purchase transactions. The Army could save an additional $19 million in workyears
annually by increasing its credit card use to 80 percent of all micro-purchase
transactions. The Army could also save another $17 million in workyears annually
by streamlining its credit card procedures. The report contained recommendations
for the Army to improve the efficiency of procedures for making micro-purchase
transactions, and improve the efficiency of the credit card processing by
implementing streamlined procedures for making micro-purchase transactions.
Management concurred with the recommendations.

31. Memorandum Report No. AA 96-260, “International Merchants Purchase
Authorization Card,” July 31, 1996. The administrative process required to pay
the credit card bill was burdensome and requires a great deal of paperwork, and
approving officials did not adequately review cardholder submissions for accuracy.
The report suggested requiring approving officials consolidate and report monthly
cardholder submissions in accordance with the most recent guidance, and validate
the submissions to reduce the current level of effort needed to process credit card
payments.

32. Report No. AA 96-227, “Government Commercial Credit Card Program,
U.S. Army Engineer Division, Pacific Ocean,” June 18, 1996. Overall, the credit
card program was effective; however, some areas needed improvement. The
Division could expand the use of credit cards to include its district offices.
Separation of duties between cardholders and receiving agents was needed.
Improvements were also needed in identifying the local purchase authority for items
to be purchased, reconciling account statements each month, and maintaining
purchase files. The report suggested that management encourage staff to use the
Government credit card to purchase goods and services; implement the program at
other Districts; and periodically review the number of cardholders and their purchase
limits. The report also suggested that management designate, in writing, authorized
receiving agents for credit card purchases ensuring that separation of duties between
cardholders and receiving agents is maintained.


                                      16
33. Report No. AA 96-128, “Government Commercial Credit Card Program,”
February 26, 1996. This was an Army-wide report. Some organizations had not
fully implemented the program and other organizations needed to increase credit
card use for purchases made with blanket purchase agreements and purchase orders.
Also, some activities implemented standing operating procedures that discouraged
the use of the credit card, and some cardholders did not adequately support or
coordinate purchases, and others split purchases to avoid the $2,500 single purchase
limitation. The report recommended that the Army increase the use of credit cards
by advising installation commanders and contracting offices of the benefits of using
credit cards, and instruct contracting offices to review standing operating procedures
and to delete procedures that prevent effective use of the credit cards. Management
concurred with the recommendations.

34. Report No. AA 96-46, “Government Commercial Credit Card Program,
U.S. Army White Sands Missile Range, New Mexico,” February 5, 1996.
Management needed to streamline procedures to improve the ease and timeliness of
purchases. Management could consolidate supply activities without any significant
reduction in supply availability and improve some key management controls. The
report had recommendations to simplify credit card purchasing procedures, eliminate
stockage of items with no demands, document training for cardholders, program
administrators, and approving officials, and ensure that cardholders are not
designated as their own approving official. Management concurred with the
recommendations.

35. Report No. AA 96-7, “Government Commercial Credit Card Program, U.S.
Army Air Defense Artillery Center and Fort Bliss, Fort Bliss, Texas,”
December 8, 1995. Fort Bliss could expand the use of credit cards to realize more
benefits. Controls over using the credit cards and accounting for goods and services
purchased with credit cards were in place and working. However, controls over
appointing approving officials, coordinating the purchase of automation items, and
staying within expenditure limits needed strengthening. The report made
recommendations to encourage activities to make better use of the credit card
program, require approving officials to periodically review the need to appoint
additional cardholders, require periodic reviews to ensure that appointments of
approving officials are current, schedule additional training for cardholders and
approving officials, and ensure appropriate separation of duties and management
controls. Management concurred with the recommendations.

36. Memorandum Report No. AA 96-21, “Audit of the Government
Commercial Credit Card Program, Fort Sam Houston, Texas,” November 6,
1995. Fort Sam Houston benefited from using credit cards, effectively controlled
credit cards, used credit cards according to guidance, and adequately accounted for
goods and services purchased. The report suggested that guidance on mandatory
sources for supply be included in the credit card program standard operating
procedures and in the training classes for cardholders and approving officials.

37. Report No. AA 96-4, “Government Commercial Credit Card Program,
I Corps and Fort Lewis, Fort Lewis, Washington,” October 26, 1995.
Cardholders and approving officials at I Corps and Fort Lewis needed to effectively
control or adequately account for goods and services purchased with the credit card.
Specifically, cardholders and approving officials did not obtain written approval
before buying accountable items, ensure that purchases were not split to circumvent

                                      17
     the dollar limitation on single card purchases, or ensure that accountable items were
     recorded in property books. The report recommended that cardholders and
     approving officials obtain documented, written approval before purchasing
     accountable items, instruct cardholders and approving officials to coordinate
     purchase requests of more than $2,500 with the Directorate of Contracting, and have
     cardholders and approving officials ensure that all accountable items are recorded in
     property books. Management concurred with the recommendations.

     38. Report No. AA 96-3, “Government Commercial Credit Card Program, U.S.
     Army Corps of Engineers, South Atlantic Division, Atlanta, Georgia,”
     October 25, 1995. The South Atlantic Division needed to fully implement the
     Government commercial credit card program. Only one of the three districts
     reviewed routinely used the credit card for small purchase transactions. The report
     recommended the Division establish a plan and goal for the districts to increase the
     use of credit cards when making small purchases. Management concurred with the
     recommendation.

Naval Audit Service
     This report is available on the Naval Audit Service home page at
     http://www.hq.navy.mil/NavalAudit.

     39. Report No. 010-99, Commercial Credit Card Programs at Naval Air
     Warfare Center, Aircraft Division, November 27, 1998. The program was not
     managed in accordance with appropriate directives and internal controls were not in
     place or functioning to prevent or promptly detect material errors and irregularities.
     Specifically, internal semiannual reviews of the purchase card program were not
     done consistently and did not address internal operating procedures to ensure
     compliance with applicable directives, compliance with applicable training
     requirements, delegations of authority, or prompt payment issues. One activity was
     late in making 71 of 142 credit card payments. As a result, the activity paid $24,350
     in interest charges from July 1994 to February 1998. Certifying officials were late
     certifying the statements and cardholders did not reconcile the statements accurately
     or timely. The billing office often returned billing account statements to the
     certifying officials for correction, further delaying payment. During FY 1997 and
     FY 1998, 26 of 51 contracts awarded could have used the purchase card program as
     a method of procurement and 17 of 51 contracts could have used the purchase card
     program as a method of making contract payments. There was no separation of
     duties for purchase card program requisitions and as a result, 775 requisitions
     totaling $124,223 were processed on which an individual acted as requestor
     (recording), department approver (authorizing), and cardholder (processing).
     Documentation maintained to verify training classes was poor and refresher training
     plans did not exist. Recommendations were made to provide training, implement
     procedures to take advantage of quantity discounts, develop software controls and
     aged reports, and establish controls to ensure pilferable property is recorded in the
     inventory system. Management actions were responsive.




                                           18
Air Force Audit Agency
      These reports are available on the Air Force Audit Agency home page at
      http://www.afaa.hq.af.mil.

Air Force-Wide
      40. Report No. 99064007, “International Merchant Purchase Authorization
      Card Usage,” June 16, 2000. The Air Force had implemented an effective credit
      card program and significantly increased credit card use from FY 1996 to FY 1998.
      However, Air Force staff did not, in all cases, comply with internal controls for
      credit card purchases. Specifically, installation program coordinators did not
      perform adequate cardholder oversight, and approving officials did not maintain or
      require cardholders to maintain all necessary documentation. Further, cardholders
      did not always obtain approvals for regulated items, use the correct cards to purchase
      items for non-appropriated fund activities, observe single purchase criteria that
      disallowed purchase splitting, or purchase supplies from approved vendors. As a
      result, cardholders were able to make improper purchases and installation program
      coordinators and approving officials did not detect and deter these improper
      purchases. The report recommended revising the Air Force procedures for using the
      credit card, and requiring the cardholders’ approving official to perform the annual
      review. The report also made recommendations to reiterate the importance of
      adhering to assigned duties and responsibilities and direct the installation program
      coordinator to review training statements for each approving official and cardholder.
      Management actions were responsive.

      41. Report No. 96064011, “Controls Over the Use of the International
      Merchant Purchase Authorization Card,” August 11, 1997. Overall the Air
      Force had implemented a cost-effective credit card program. However, the Air
      Force needed to improve overall implementation of the program. Specifically, credit
      card program coordinators, approving officials, and cardholders did not maximize
      use of the credit card and did not always comply with established controls; payments
      were not properly processed; and internal controls over purchases and payments,
      although adequate, were not properly implemented. The report recommended
      improving delinquencies and questionable account reconciliations. Management
      actions were responsive.


Installation-Level
      42. Report No. DI001036, “Air Force Purchase Card Program, Ogden Air Logistics
      Center, Hill AFB UT,” September 17, 2001.

      43. Report No. DE001033, “Air Force Purchase Card Program, 325th Fighter Wing,
      Tyndall AFB FL,” September 14, 2001.

      44. Report No. EL001097, “Air Force Purchase Card Program, 20th Fighter
      Wing, Shaw AFB SC,” September 13, 2001. Cardholders did not use proper
      purchase procedures for 21 of 151 purchases reviewed. In addition, cardholders did
      not maintain all supporting documentation for 23 of 151 purchases, and billing

                                            19
officials did fully reconcile 22 of 151 purchases reviewed. Finally, staff did not
establish accountability for computer equipment purchased with the purchase card at
a cost of $21,051. Staff did not record 6 of 14 computer items purchased using the
purchase card in the inventory system. Cardholders did not coordinate computer
purchases through the automated data processing equipment manager. Specifically,
cardholders used their unit address as the “ship to” address on orders rather than the
manager’s “ship to” address. Management officials took corrective action to provide
additional training and increase the emphasis of training on authorized purchases and
reconciliation procedures. The report also recommended establishing accountability
for the six computer purchases identified. Management concurred with the
recommendation.

45. Report No. EO001071, “Air Force Purchase Card Program, 55th Wing, Offutt
AFB NE,” September 12, 2001.

46. Report No. DE001032, “Air Force Purchase Card Program, Air Armament
Center, Eglin AFB FL,” September 6, 2001.

47. Report No. EA001054, “Purchase Card Program, 11th Wing, Bolling AFB DC,”
August 29, 2001.

48. Report No. DR001037, “Air Force Purchase Card Program, Warner Robins Air
Logistics Center, Robins AFB GA,” August 29, 2001.

49. Report No. EB001061, “Air Force Purchase Card Program, 81st Training Wing,
Keesler AFB MS,” August 28, 2001.

50. Report No. WN001053, “Air Force Purchase Card Program, 377th Air Base
Wing, Kirtland AFB NM,” August 7, 2001.

51. Report No. WS001073, “Air Force Purchase Card Program, 82d Training Wing,
Sheppard AFB TX,” July 31, 2001.

52. Report No. WH001045, “International Merchant Purchase Authorization Card
Program, 353d Special Operations Group, Kadena AB, Japan,” July 30, 2001.

53. Report No. DW001030, “Surveillance of the Air Force Government-Wide
Purchase Card, 178th Fighter Wing, Ohio Air National Guard, Springfield-
Beckley Municipal Airport OH,” July 27, 2001. Overall, management controls
and procedures for use of the purchase card were not effective. Although staff had
been using the purchase card for several years, the program coordinator did not
consistently include adequate management controls and procedures when
establishing purchase card program accounts; and purchase card officials did not
always properly record and reconcile transactions before payment. The Comptroller
at one activity was also an assigned billing official, thereby combining
responsibilities to authorize, process, record, and review transactions. The report
recommended that Air Force purchase card controls and procedures be included in
local standard operating procedures. Management agreed with the recommendation.

54. Report No. DE001028, “Air Force Purchase Card Program, 16th Special
Operations Wing, Hurlburt Field FL,” July 24, 2001.


                                      20
55. Report No. WR001026, “Air Force Government-Wide Purchase Card Program,
12th Flying Training Wing, Randolph AFB TX,” July 23, 2001.

56. Report No. WR001025, “Government-Wide VISA Smartpay Purchase Card
Program, 149th Fighter Wing, Texas Air National Guard, Kelly AFB TX,”
July 23, 2001. The purchase card program required improvement. Although the
program coordinator had revised the guidance for use of the purchase card, and
accountable items purchased using the purchase card were properly accounted for,
weaknesses in the overall program existed. The program coordinator assigned
merchant activity codes to functional organization cardholders that were either not
appropriate, or were not rescinded after the “one time” need occurred. For example,
5 of 37 cardholders had at least one merchant category code that was not applicable
to purchases for the organization. In addition, the program coordinator did not
rescind codes assigned temporarily to cardholders that requested specific authorized
purchases outside of their functional organization authority for a specific time
period. The program coordinator did not adequately administer the program through
annual inspections of cardholders and approving officials or maintenance of
cardholder and approving official documentation. The program coordinator did not
accomplish annual reviews in FY 2000 for 33 of 37 cardholders or any of the 21
approving officials at one activity. Additionally, none of the current cardholders
were reviewed within 90 days of being appointed a cardholder, as required by
regulations. The report recommended the program coordinator provide initial or
refresher training, reemphasize all card purchases must be coordinated with the
cardholder, develop a schedule to accomplish required reviews of cardholders,
annually review each cardholder’s merchant activity code, and maintain supporting
documentation for each cardholder and approving official. Management concurred
with the recommendations.

57. Report No. WP001051, “Air Force Purchase Card Program, 28th Bomb Wing,
Ellsworth AFB SD,” July 11, 2001.

58. Report No. WS001067, “Equipment Accountability, 128th Air Refueling Wing,
Air National Guard, Milwaukee WI,” June 28, 2001.

59. Report No. WS001065, “Government-Wide Purchase Card Program, Combat
Readiness Training Center, Air National Guard, Volk Field WI,” June 21, 2001.

60. Report No. EO001055, “Child Development Center, 55th Wing, Offutt AFB
NE,” May 21, 2001.

61. Report No. WS001056, “Government-Wide Purchase Card Program, 348th
Recruiting Squadron, Little Rock AFB AR,” May 8, 2001.

62. Report No. WS001055, “Government-Wide Purchase Card Program, 128th Air
Refueling Wing, Air National Guard, General Mitchell Field WI,” May 8, 2001.

63. Report No. WM001043, “Government-Wide Purchase Card Program, 336th
Training Group, Fairchild AFB WA,” May 1, 2001. Management did not
establish effective procedures to account for non-expendable equipment and
individual issue purchases. Specifically, 9 of 12 (75 percent) cardholders reviewed
needed to improve internal controls to properly account for non-expendable and/or
individual equipment. This occurred because management relied on outdated

                                     21
purchase card guidance and had not emphasized required accountability procedures.
Three billing officials attested to the accuracy of information provided to the
certifying officer in support of the payments to the bank for 4,831 transactions
valued at $1,386,003 without first-hand knowledge of the purchases or the
disposition of the assets. Billing officials relied on cardholders to self-certify that
purchases, including pilferable items such as sleeping bags, tools, individual
equipment, auto parts, and recreation vehicle repairs, were for valid mission
requirements rather than for personal use. The report recommended accountability
procedures be established to record all non-expendable property purchases. The
report also recommended that billing officials be in the chain of command and
establish procedures to ensure that an appropriate supervisor review cardholder
transactions. Management agreed with the recommendations.

64. Report No. DI001025, “Chaplain Funds, Ogden Air Logistics Center, Hill AFB
UT,” April 26, 2001.
65. Report No. EL001065, “International Merchant Purchase Authorization Card
Program, Headquarters Air Combat Command, Langley AFB VA,” April 25, 2001.

66. Report No. WS001047, “International Merchant Purchase Authorization Card
Program, 434th Air Refueling Wing, Air Force Reserve Command, Grissom ARB
IN,” April 11, 2001.

67. Report No. WS001043, “Property, Plant, and Equipment (Real Property
Portion), Fiscal Year 2000. Air Force Consolidated Financial Statements, 440th
Airlift Wing, Air Force Reserve Command, General Mitchell ARB WI,” April 2,
2001.

68. Report No. DE001018, “Blanket Purchase Agreements, Air Armament
Center, Eglin AFB FL,” April 2, 2001. Not all blanket purchase agreements were
used sufficiently to warrant maintaining them as established, and some minimally
used blanket purchase agreements could be restructured to reduce administrative
billing costs. Therefore, the opportunity exists to reduce small purchase
administrative costs through increased management oversight and purchase card use.
Specifically, 3 of 36 blanket purchase agreements reviewed could have used the
purchase card to pay for purchases instead of direct billing to reduce administrative
billing costs, promote efficiency and economy in contracting, and provide faster
payment to the contractor. Not using the purchase card cost the Air Force an
estimated $4,725 in additional payment processing costs. The report recommended
that a credit card payment method be established for the three blanket purchase
agreements identified and provide training so that users will know when a blanket
purchase agreement should be canceled for insufficient activity. Management agreed
with the recommendations.

69. Report No. WP001020, “International Merchant Purchase Authorization Card
Program, 60th Air Mobility Wing, Travis AFB CA,” January 25, 2001.

70. Report No. WM001027, “International Merchant Purchase Authorization Card
Controls, 173d Fighter Wing, Kingsley Field OR,” January 17, 2001.

71. Report No. WM001026, “Budget Code 9 Assets, 28th Bomb Wing, Ellsworth
AFB SD,” January 17, 2001.

                                       22
72. Report No. EB001025, “International Merchant Purchase Authorization Card
Program, 6th Air Refueling Wing, MacDill AFB FL,” January 2, 2001.

73. Report No. EL001042, “Flying Hour Funds, 130th Airlift Wing, Charleston
WV,” December 29, 2000.

74. Report No. EB001023, “International Merchant Purchase Authorization Card
Program, 172d Airlift Wing, Jackson MS,” December 15, 2000.

75. Report No. WS001016, “Followup on Base Furnishings, 375th Airlift Wing,
Scott AFB IL,” December 14, 2000.

76. Report No. ER001008, “International Merchant Purchase Authorization
Card Usage, 422d Air Base Squadron, Royal Air Force Croughton, United
Kingdom,” December 1, 2000. Purchase card usage was generally adequate but
required improvement in all three areas reviewed. Cardholders did not obtain or
document the required approval in 33 of 68 instances. For example, one unit made
nine purchases valued at $56,324 for items such as computers and printers without
obtaining approval from the controlling agency. In addition, cardholders and
approving officials did not properly document and maintain support for purchase
card acquisitions. Specifically, 219 of 451 (49 percent) purchases, valued at
$162,358, were not recorded in the purchase log and 143 of the 451 (32 percent)
purchases listed could not be verified as approved or reconciled by cardholders or
approving officials. The program coordinator was 1 to 19 months late in performing
required reviews for 39 of 49 cardholders (80 percent) reviewed. The report
recommended the program coordinate perform the required reviews of cardholders
and approving officials. Management agreed with the recommendations.

77. Report No. DI001012, “International Merchant Purchase Authorization
Card Program, 419th Fighter Wing, Hill AFB UT,” December 1, 2000. The
purchase card program was not effectively managed. Specifically, purchase logs
were not always properly prepared or maintained, coordination for purchases was not
always accomplished, and documentation to support purchases was not always
maintained. Some cardholders did not sign and date, retain a copy, or reconcile the
account statement when it was received. Cardholders did not always maintain the
required administrative documentation in their file. For example, a review of
34 cardholder files disclosed that 18 did not have a delegation of authority in their
files, and 19 did not have the cardholder instructions in their files. Purchase rebates
were not always used, purchases were improperly split, and unauthorized individuals
made some purchases. For example, one cardholder made three purchases totaling
$5,331 of office furniture from one vendor on the same day. Also, funding
documentation was not always timely processed or maintained. The report made
recommendations to require cardholders to include all needed information on the
purchase log, obtain coordination with applicable host base organizations before
making purchases, make and retain copies of their account statements, take
advantage of rebates, verify funds are available prior to making commitments, and
maintain the funding authorization document. Management agreed with the
recommendations.

78. Report No. WM001020, “International Merchant Purchase Authorization Card
Program, 366th Wing, Mountain Home AFB ID,” November 28, 2000.


                                      23
79. Report No. EL001028, “International Merchant Purchase Authorization Card
Purchases, 1st Combat Camera Squadron, Charleston AFB SC,” November 27, 2000.

80. Report No. WN001014, “Family Housing Maintenance, 355th Wing, Davis-
Monthan AFB AZ,” November 22, 2000.

81. Report No. WN001013, “Fiscal Year 2000 Obligation Review, 99th Air Base
Wing, Nellis AFB NV,” November 22, 2000.

82. Report No. WN001012, “Fiscal Year 2000 Obligation Review, 49th Fighter
Wing, Holloman AFB NM,” November 20, 2000. The 49th Fighter Wing did not
effectively implement internal controls over recording and properly monitoring
obligations. Cardholder accounts were not reviewed to determine if all charges had
been billed and cardholders did not inform the resource advisors when all year-end
purchases were billed and paid. For example, one unit had established five
obligations with a combined balance of $28,338 to pay year-end purchases.
However, the unit only purchased $10,697, which means staff could have
deobligated $17,641 and used the funds for other requirements. The report
recommended that cardholder accounts be periodically reviewed to determine if all
prior year charges were billed. Management concurred with the recommendation.

83. Report No. EL001023, “Flying Hour Program, 916th Air Refueling Wing,
Seymour Johnson AFB NC,” November 17, 2000.

84. Report No. WN001011, “Budget Code 9 Accountability, 56th Fighter Wing,
Luke AFB AZ,” November 16, 2000.

85. Report No. DW001004, “International Merchant Purchase Authorization Card,
Purchases of Hazardous Materials, Aeronautical Systems Center, Wright-Patterson
AFB OH,” October 30, 2000.

86. Report No. EO001005, “International Merchant Purchase Authorization Card,
Outdoor Recreation Activity, 22d Air Refueling Wing, McConnell AFB KS,”
October 25, 2000.

87. Report No. DI001004, “Essential Products Program, Ogden Air Logistics
Center, Hill AFB UT,” October 25, 2000.

88. Report No. EL001010, “Contracted Services, Detachment 1, 347th Wing,
Moody AFB GA,” October 10, 2000.

89. Report No. EO001003, “International Merchant Purchase Authorization Card,
71st Flying Training Wing, Vance AFB OK,” October 2, 2000.

90. Report No. EO000082, “International Merchant Purchase Authorization Card
Usage, 442d Fighter Wing, Whiteman AFB MO,” September 21, 2000.

91. Report No. EA000077, “International Merchant Purchase Authorization Card
Program, 914th Airlift Wing, Niagara International Airport/Air Reserve Station
NY,” September 21, 2000.



                                     24
92. Report No. WR000032, “Chaplain Service Resources, 7th Bomb Wing,
Dyess AFB TX,” September 21, 2000. Chaplain staff did not always effectively
monitor appropriated fund expenditures. Chaplain cardholders did not include 12 of
101 purchases (12 percent), valued at $5,251, on the purchase card log. The report
recommended that management provide training to cardholders on split purchases
and the purchase limitation and require cardholders to include all purchases on the
log, reconcile account statements, and research any variances. Management actions
were responsive.

93. Report No. WP000075, “Automated Data Processing Equipment, 60th Air
Mobility Wing, Travis AFB CA,” September 14, 2000.

94. Report No. WR000030, “Government Card Usage, Headquarters Air Force
Services Agency, Randolph AFB TX,” September 13, 2000. Generally, controls
over the government credit card programs were adequate. However, the program
coordinator did not provide all required training, properly assign merchant codes, or
accomplish cardholder inspections. The program coordinator did not provide the
cardholder training required by Air Force guidance. Areas not covered during
training included: blanket purchase agreements, competition and price
reasonableness, purchase of non-medical equipment, warranties, established
contracts, and purchase card policies and procedures. The report recommended that
the program coordinator provide training as required by Air Force guidance.
Management actions were responsive.

95. Report No. WP000069, “Family Support Center Financial Operations, 21st
Space Wing, Peterson AFB CO,” September 8, 2000.

96. Report No. EB000085, “International Merchant Purchase Authorization Card
Program, 117th Air Refueling Wing, Birmingham MAP AL,” September 7, 2000.

97. Report No. WS000076, “Followup of the International Merchant Purchase
Authorization Card Program, 164th Airlift Wing, Air National Guard, Memphis
TN,” September 6, 2000.

98. Report No. WN000057, “Fiscal Year 2000 Obligation Review, 56th Fighter
Wing, Luke AFB AZ,” August 29, 2000.

99. Report No. EL000120, “Flying Hour Funds, 437th Airlift Wing, Charleston AFB
SC,” August 17, 2000.

100. Report No. WN000055, “International Merchant Purchase Authorization Card,
162d Fighter Wing, Tucson International Airport AZ,” August 10, 2000.

101. Report No. EO000068, “International Merchant Purchase Authorization Card,
5th Bomb Wing, Minot AFB ND,” July 31, 2000.

102. Report No. WH000026, “International Merchant Purchase Authorization Card
Usage, 15th Air Base Wing, Hickam AFB HI,” July 27, 2000.

103. Report No. DR000036, “Followup of Controls Over the Use of International
Merchant Purchase Authorization Cards for Small Purchases, 116th Bomb Wing,
Robins AFB GA,” July 14, 2000.

                                     25
104. Report No. DI000032, “Inventory Controls Over and Management of
Computer Equipment, 419th Fighter Wing, Hill AFB UT,” June 28, 2000.

105. Report No. EO000062, “International Merchant Purchase Authorization Card
Usage, 509th Bomb Wing, Whiteman AFB MO,” June 23, 2000.

106. Report No. EL000097, “Flying Hour Funds, 347th Wing, Moody AFB GA,”
June 21, 2000.

107. Report No. WP000059, “Official Representation Funds, Headquarters Air
Force Space Command, Peterson AFB CO,” June 16, 2000.

108. Report No. WP000056, “International Merchant Purchase Authorization
Card Program, 9th Reconnaissance Wing, Beale AFB CA,” June 14, 2000.
Internal controls over the IMPAC program were generally effective. However,
approving officials and cardholders allowed split purchases and did not effectively
enforce some administrative controls. One cardholder purchased six television sets
totaling $2,371 from one vendor and two more identical television sets totaling $739
from another vendor on the same day. If purchased as one transaction, the total
would have been $3,110, or $610 more than the purchase limit of $2,500. The report
recommended that the program coordinator reemphasize the importance of using
traditional acquisition procedures when total requirements exceed the
$2,500 purchase threshold, and closely examine the purchases of organizations with
a history of split purchases and ensure regulatory compliance. Management agreed
with the recommendations.

109. Report No. EL000092, “Flying Hour Funds, 1st Fighter Wing, Langley AFB
VA,” June 14, 2000.

110. Report No. EL000091, “Chaplain Funds Program, 347th Wing, Moody AFB
GA,” June 14, 2000.

111. Report No. EA000047, “Housing Operations Management, 11th Wing, Bolling
AFB DC,” June 12, 2000.

112. Report No. WP000047, “International Merchant Purchase Authorization
Card Usage, 21st Space Wing, Peterson AFB CO,” May 17, 2000. Some of the
organizations had not implemented internal controls needed to ensure all purchases
were appropriate and properly documented. One cardholder had made more than
$3,900 in purchases that were for personal use. The unauthorized purchases, some
of which were delivered to the cardholder’s home, included pens, binoculars, a home
theater system, a personal computer and cart, and membership to a discount club.
The organizational commander had delegated purchase verification and other
approving official duties to the member’s supervisors without proper training. As a
result, the monthly statements did not have approval signatures, and the unauthorized
purchases went undetected. Management took action during the audit to suspend the
purchase authority of the cardholder. Subsequently, at Court Martial, the suspect
was found guilty of larceny. In addition, 14 cardholders had made 31 purchases,
valued at more than $42,000 that were not properly supported by documentation.




                                     26
Cardholders did not provide approving officials required supporting documentation
in 31 of 201 (24 percent) transactions. The report recommended that the program
coordinator provide training to approving officials and cardholders, direct approving
officials and cardholders to retain supporting documentation, and acquire missing
documentation. Management agreed with the recommendations.

113. Report No. WP000044, “Trust Fund Financial Statements, United States Air
Force Academy CO,” May 10, 2000.

114. Report No. EL000068, “Flying Hour Funds Management, 23d Fighter Group,
Pope AFB NC,” April 12, 2000.

115. Report No. EL000066, “Wireless Communications, 20th Fighter Wing, Shaw
AFB SC,” April 11, 2000.
116. Report No. WH000014, “International Merchant Purchase Authorization Card
Usage, 635th Air Mobility Support Squadron, Hickam AFB HI,” April 6, 2000.

117. Report No. DE000016, “Controls Over Hand Tools, Air Armament Center,
Eglin AFB FL,” April 6, 2000.

118. Report No. EL000063, “Flying Hour Funds Management, 20th Fighter Wing,
Shaw AFB SC,” April 5, 2000.

119. Report No. ER000031, “Chaplain Fund, 425th Air Base Squadron, Izmir Air
Station, Turkey,” April 3, 2000.

120. Report No. DR000014, “Depot Maintenance Hand Tools, Warner Robins Air
Logistics Center, Robins AFB GA,” February 18, 2000.

121. Report No. EL000043, “Flying Hour Funds, 4th Fighter Wing, Seymour
Johnson AFB NC,” February 14, 2000.

122. Report No. WN000019, “Wireless Communication, 49th Fighter Wing,
Holloman AFB NM,” January 5, 2000.

123. Report No. WS000019, “International Merchant Purchase Authorization Card
Program, 164th Airlift Wing, Air National Guard, Memphis TN,” December 22,
1999.

124. Report No. ER000013, “Flying Hour Funding Process, 52d Fighter Wing,
Spangdahlem Air Base Germany,” December 22, 1999.

125. Report No. WM000015, “Internal Controls Over International Merchant
Purchase Authorization Card Purchases, 92d Air Refueling Wing, Fairchild
AFB WA,” December 21, 1999. Internal controls over purchase card acquisitions
required improvement. Assets acquired with the purchase card were on hand at the
purchasing organizations and accounted for as required. However, cardholders
purchased items that were not authorized or that exceeded mission needs. In
addition, cardholders and approving officials did not always reconcile and certify
purchases adequately to verify bank statement charges. For example, coupling
gaskets were purchased, and the cardholder was quoted a price of $80.64 but the

                                     27
account statement showed a charge of $112.40. Although cardholders generally
maintained required documentation to substantiate purchases, some transactions
were not fully supported. The report recommended including examples of
unauthorized and excessive purchases in future training classes. In addition, the
report recommended requiring approving officials to review supporting
documentation and verify bank statement charges. Management agreed with the
recommendations.

126. Report No. EL000027, “Local Purchases, Avon Park Bombing Range,
Detachment 1, 347th Wing, Moody AFB GA,” December 15, 1999.

127. Report No. WP000013, “Annual Review of Official Representation Funds,
United States Air Force Academy, CO,” December 9, 1999.

128. Report No. ER000011, “International Merchant Purchase Authorization Card
Program, 52d Fighter Wing, Spangdahlem AB, Germany,” December 9, 1999.
129. Report No. DT000007, “Civil Engineering Material Management, Oklahoma
City Air Logistics Center, Tinker AFB OK,” December 7, 1999.

130. Report No. WS000012, “International Merchant Purchase Authorization Card
Usage, 375th Airlift Wing, Scott AFB IL,” November 29, 1999.

131. Report No. WH000004, “International Merchant Purchase Authorization Card
Usage, 51st Fighter Wing, Osan AB, Korea,” November 17, 1999.

132. Report No. EL000015, “International Merchant Purchase Authorization Card
Program, 622d Communications Flight, Langley AFB VA,” November 3, 1999.

133. Report No. ER000007, “Contracting Procedures, 763d Expeditionary Air
Refueling Squadron, Al Dhafra Air Base, United Arab Emirates,” November 1,
1999.

134. Report No. WS000006, “Hazardous Materials Pharmacy, 375th Airlift Wing,
Scott AFB IL,” October 20, 1999.

135. Report No. EL000006, “Controls Over Golf Course Pro Shop Equipment,
437th Airlift Wing, Charleston AFB SC,” October 15, 1999.

136. Report No. EO099056, “International Merchant Purchase Authorization Card
Usage, 55th Wing, Offutt AFB NE,” September 15, 1999.

137. Report No. EA099066, “International Merchant Purchase Authorization Card
Usage, 89th Airlift Wing, Andrews AFB MD,” September 15, 1999.

138. Report No. WM099058, “International Merchant Purchase Authorization Card
Usage, 28th Bomb Wing, Ellsworth AFB SD,” September 14, 1999.

139. Report No. DD099016, “International Merchant Purchase Authorization Card
Usage, Air Force Flight Test Center, Edwards AFB CA,” September 14, 1999.



                                     28
140. Report No. ER099068, “Telecommunication Services and Equipment,
Headquarters United States Air Forces in Europe, Ramstein Air Base, Germany,”
September 8, 1999.

141. Report No. DR099034, “International Merchant Purchase Authorization Card,
Warner Robins Air Logistics Center, Robins AFB GA,” August 30, 1999.

142. Report No. EA099058, “Followup of Control Over the Use of International
Merchant Purchase Authorization Cards for Small Purchases, 911th Airlift Wing,
Pittsburgh International Airport, Air Reserve Station, Coraopolis PA,” August 20,
1999.

143. Report No. WN099047, “Operation of the Computer and Electronic Parts
Store, Air Force Research Laboratory-Directed Energy Directorate, Kirtland AFB
NM,” August 19, 1999.
144. Report No. EB099098, “International Merchant Purchase Authorization Card,
14th Flying Training Wing, Columbus AFB MS,” August 17, 1999.

145. Report No. WR099055, “International Merchant Purchase Authorization Card
Usage, 37th Training Wing, Lackland AFB TX,” August 9, 1999.

146. Report No. WN099044, “Small Computer Program, 355th Wing, Davis-
Monthan AFB AZ,” August 4, 1999.

147. Report No. WR099052, “International Merchant Purchase Authorization Card
Usage, 59th Medical Wing, Lackland AFB TX,” July 29, 1999.

148. Report No. ER099063, “International Merchant Purchase Authorization Card
Usage, 100th Air Refueling Wing, Royal Air Force Mildenhall, United Kingdom,”
July 29, 1999.

149. Report No. WS099046, “International Merchant Purchase Authorization Card
Usage, Air Force Communications Agency, Scott AFB IL” July 28, 1999.

150. Report No. ER099061, “Cellular Telephones, 86th Airlift Wing, Ramstein AB,
Germany,” July 23, 1999.

151. Report No. EB099090, “International Merchant Purchase Authorization Card
Usage, 2d Bomb Wing, Barksdale AFB LA,” July 13, 1999.

152. Report No. EB099088, “Affirmative Procurement Program, 2d Bomb Wing,
Barksdale AFB LA,” July 12, 1999.

153. Report No. WS099041, “International Merchant Purchase Authorization Card
Program, 181st Fighter Wing, Indiana Air National Guard, Terre Haute IN,” June 24,
1999.

154. Report No. ER099051, “International Merchant Purchase Authorization
Card Usage, 48th Fighter Wing, Royal Air Force Lakenheath, United
Kingdom,” June 23, 1999. Management of the purchase card program needed
improvement. Cardholders and approving officials did not properly authorize and

                                     29
document purchase card acquisitions. In addition, contracting purchase card staff
may not have performed adequate surveillance. Cardholders assigned to various
base units made unauthorized purchases. Cardholders purchased items costing
$38,000 without prior approval. These items were used to furnish an employee
break room. A purchase card was used to pay for a game area, big screen television
with satellite dish, large brick bar area, brick eating/sitting area complete with a brick
fountain, and a 20-foot tall clock tower. Cardholders did not properly document and
maintain support for purchases. Management took action to reduce the number of
cardholders and reiterated guidance detailing purchases that require prior
authorization and approval by controlling activities.

155. Report No. WS099038, “International Merchant Purchase Authorization Card
Usage, Air Mobility Command, Scott AFB IL,” June 10, 1999.

156. Report No. ER099045, “Housing Operations, 422d Air Base Squadron, Royal
Air Force Croughton, United Kingdom,” June 2, 1999.
157. Report No. EB099076, “International Merchant Purchase Authorization Card
Program, 45th Space Wing, Patrick AFB FL,” June 2, 1999.

158. Report No. WN099036, “Affirmative Procurement Program, 49th Fighter
Wing, Holloman AFB NM,” May 28, 1999.

159. Report No. WH099053, “Chapel Fund Operations, 18th Wing, Kadena AB,
Japan,” May 26, 1999.

160. Report No. WH099051, “International Merchant Purchase Authorization Card
Program, 18th Wing, Kadena AB, Japan,” May 25, 1999.

161. Report No. DR099022, “Child Development Center Activities, Warner Robins
Air Logistics Center, Robins AFB GA,” May 21, 1999.

162. Report No. EA099044, “Purchased Goods and Services, 11th Wing, Bolling
AFB DC,” May 14, 1999.

163. Report No. EL099056, “Controls Over the International Merchant Purchase
Authorization Card Program, 167th Airlift Wing, Martinsburg WV,” May 4, 1999.

164. Report No. EL099053, “Equipment Accountability, 24th Wing, Howard AFB,
Panama,” May 4, 1999.

165. Report No. EB099064, “International Merchant Purchase Authorization Card
Program, 187th Fighter Wing, Dannelly Field, Montgomery AL,” May 3, 1999.

166. Report No. WN099032, “Hazardous Materials Pharmacy Program, 355th
Wing, Davis-Monthan AFB AZ,” April 22, 1999.

167. Report No. DE099027, “International Merchant Purchase Authorization Card
Usage, Air Armament Center, Eglin AFB FL,” April 20, 1999.




                                       30
168. Report No. EB099059, “International Merchant Purchase Authorization Card
Program, 156th Airlift Wing, Muniz Air National Guard Base, Puerto Rico,”
April 19, 1999.

169. Report No. DD099008, “Affirmative Procurement Program, 452d Air Mobility
Wing, March Air Reserve Base CA,” April 9, 1999.

170. Report No. WM099032, “International Merchant Purchase Authorization Card
Controls, 939th Rescue Wing, Portland International Airport OR,” April 6, 1999.

171. Report No. WP099024, “Hazardous Materials Program, 21st Space Wing,
Peterson AFB CO,” April 5, 1999.

172. Report No. EL099042, “Logistics Programs Flight Controls Over Small
Purchases, 1st Fighter Wing, Langley AFB VA,” April 1, 1999.
173. Report No. EB099055, “Maxwell-Gunter Chaplain Funds for Fiscal
Year 1998, 42d Air Base Wing, Maxwell AFB AL,” April 1, 1999.

174. Report No. DE099022, “16th Services Squadron Financial Management, 16th
Special Operations Wing, Hurlburt Field FL,” March 12, 1999.

175. Report No. WS099023, “International Merchant Purchase Authorization Card,
123d Airlift Wing, Air National Guard, Louisville KY,” March 11, 1999.

176. Report No. WH099031, “Local Purchases, 51st Fighter Wing, Osan AB,
Korea,” March 11, 1999.

177. Report No. ER099025, “Fire Department Equipment Accountability, 52d
Fighter Wing, Spangdahlem AB, Germany,” March 8, 1999.

178. Report No. DI099024, “Environmental Management of Small Purchases,
Ogden Air Logistics Center, Hill AFB UT,” February 18, 1999.

179. Report No. WN099018, “Use of the International Merchant Purchase
Authorization Card for Small Purchases, 355th Wing, Davis-Monthan AFB AZ,”
February 5, 1999.

180. Report No. WN099017, “Exterior Electric Shop Operations, 49th Fighter
Wing, Holloman AFB NM,” February 05, 1999.

181. Report No. WP099016, Automated Data Processing Equipment
Accountability, Schriever AFB CO,” January 28, 1999.

182. Report No. WH099017, “International Merchant Purchase Authorization Card
Program, 353d Special Operations Group, Kadena AB, Japan,” January 26, 1999.

183. Report No. WS099018, “International Merchant Purchase Authorization Card
Program, 97th Air Mobility Wing, Altus AFB OK,” January 20, 1999.

184. Report No. DT099008, “Use of the International Merchant Purchase
Authorization Card-72d Air Base Wing, Tinker AFB OK,” January 21, 1999.

                                   31
185. Report No. WN099016, “Golf Course Procurement, Inventory, and Cash
Procedures, 56th Fighter Wing, Luke AFB AZ,” January 12, 1999.

186. Report No. WP099013, “Auto Skills Center Equipment Accountability, 21st
Space Wing, Peterson AFB CO,” January 11, 1999.

187. Report No. WN099014, “Use of International Merchant Purchase
Authorization Card, 99th Air Base Wing, Nellis AFB NV,” December 21, 1998.

188. Report No. WH099010, “International Merchant Purchase Authorization Card
Program, 633d Air Mobility Support Squadron, Kadena AB, Japan,” December 21,
1998.

189. Report No. DT099007, “Use of the International Merchant Purchase
Authorization Card, Oklahoma City Air Logistics Center, Tinker AFB OK,”
December 14, 1998.
190. Report No. EB099024, “Non-Appropriated Fund International Merchant
Purchase Authorization Card Program, 42d Air Base Wing, Maxwell AFB AL,”
December 9, 1998.

191. Report No. WN099010, “Civil Engineer Materials, 355th Wing, Davis-
Monthan AFB AZ,” November 24, 1998.

192. Report No. EB099011, “International Merchant Purchase Authorization Card
Program, 118th Airlift Wing, Air National Guard, Nashville TN,” November 17,
1998.

193. Report No. WN099004, “Use of International Merchant Purchase
Authorization Card, 49th Fighter Wing, Holloman AFB NM,” November 10, 1998.

194. Report No. WR099005, “International Merchant Purchase Authorization Card,
301st Fighter Wing, Naval Air Station, Fort Worth Joint Reserve Base TX,”
October 28, 1998.

195. Report No. EB099010, “International Merchant Purchase Authorization Card
Program, 463d Airlift Group, Little Rock AFB AR,” October 27, 1998.

196. Report No. EL099009, “International Merchant Purchase Authorization Card,
20th Fighter Wing, Shaw AFB SC,” October 23, 1998.

197. Report No. EL099007, “International Merchant Purchase Authorization Card,
65th Air Base Wing, Lajes Field, The Azores, Portugal,” October 22, 1998.

198. Report No. WR099002, “International Merchant Purchase Authorization Card
Program, 27th Fighter Wing, Cannon AFB NM,” October 21, 1998.

199. Report No. WH099002, “Air Force Official Representation Contingency
Funds-Fiscal Year 1997, HQ PACAF, Hickam AFB HI,” October 13, 1998.

200. Report No. EB099006, “International Merchant Purchase Authorization Card
Program, 314th Airlift Wing, Little Rock AFB AR,” October 7, 1998.

                                   32
201. Report No. WS099001, “Use of the International Merchant Purchase
Authorization Card, 22d Air Refueling Wing, McConnell AFB KS,” October 1,
1998.

202. Report No. WR098019, “International Merchant Purchase Authorization Card,
17th Training Wing, Goodfellow AFB TX,” September 8, 1998.

203. Report No. WP098032, “Use of the International Merchant Purchase
Authorization Card, 129th Rescue Wing, Moffett Federal Airfield CA,”
September 8, 1998.

204. Report No. DH098007, “Base Supply Equipment Accountability, Electronic
Systems Center, Hanscom AFB MA,” August 19, 1998.

205. Report No. EL098045, “Self-Help Program, 4th Fighter Wing, Seymour
Johnson AFB NC,” August 18, 1998.

206. Report No. WS098040, “Air Force Official Representation Contingency
Funds, Fiscal Year 1997, Headquarters Air Mobility Command, Scott AFB IL,”
August 14, 1998.

207. Report No. EL098042, “International Merchant Purchase Authorization Card
Program, 24th Wing, Howard AFB, Panama,” August 11, 1998.

208. Report No. WN098024, “Use of the International Merchant Purchase
Authorization Card, 56th Fighter Wing, Luke AFB AZ,” August 6, 1998.

209. Report No. WH098009, “International Merchant Purchase Authorization Card
Program, 390th Intelligence Squadron, Kadena AB, Japan,” August 6, 1998.

210. Report No. WS098030, “Use of the International Merchant Purchase
Authorization Card, 190th Air Refueling Wing, Kansas Air National Guard, Forbes
Field KS,” July 8, 1998.

211. Report No. ER098027, “Blanket Purchase Agreements, 4406th Operations
Group (Provisional), Al Jaber Air Base, Kuwait,” June 3, 1998.

212. Report No. ER098013, “International Merchant Purchase Authorization Card,
31st Fighter Wing, Aviano AB, Italy,” May 7, 1998.

213. Report No. WS098011, “Use of the International Merchant Purchase
Authorization Card, 184th Bomb Wing, Kansas Air National Guard, McConnell
AFB KS,” April 28, 1998.

214. Report No. EL098002, “International Merchant Purchase Authorization Card
Program, 4th Fighter Wing, Seymour Johnson AFB NC,” April 2, 1998.

215. Report No. 53098015, “Management of the International Merchant Purchase
Authorization Card, 52d Fighter Wing, Spangdahlem AB, Germany,” March 20,
1998.



                                   33
216. Report No. 40498011, “Use of the International Merchant Purchase
Authorization Card, Electronic Systems Center, Hanscom AFB MA,” March 17,
1998.

217. Report No. 40598041, “Followup on Controls Over the Use of the
International Merchants Purchase Authorization Cards for Small Purchases, Ogden
Air Logistics Center, Hill AFB UT,” March 13, 1998.

218. Report No. 50498009, “Use of the International Merchant Purchase
Authorization Card, 437th Airlift Wing, Charleston AFB SC,” March 9, 1998.

219. Report No. 26198008, “Management of the International Merchants Purchase
Authorization Card Program, 50th Space Wing, Falcon AFB CO,” February 13,
1998.

220. Report No. 51298032, “Followup of Controls Over the Use of the
International Merchant Purchase Authorization Card for Small Purchases, 192d
Fighter Wing, Byrd International Airport, Sandston VA,” February 12, 1998.

221. Report No. 40298004, “Materiel and Equipment Control, Air Force Flight Test
Center, Edwards AFB CA,” January 23, 1998.

222. Report No. 42598023, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 5th Combat Communications
Group, Robins AFB GA,” January 16, 1998.

223. Report No. 52298012, “Controls Over Local Purchases, 86th Airlift Wing,
Ramstein AB, Germany,” December 31, 1997.

224. Report No. 51298019, “Management of the International Merchant Purchase
Authorization Card Program, 203d RED HORSE Civil Engineering Flight, Virginia
Air National Guard, Camp Pendleton VA,” December 31, 1997.

225. Report No. 51298017, “Followup Audit, Management of the International
Merchant Purchase Authorization Card Program, 1st Fighter Wing, Langley AFB
VA,” December 22, 1997.

226. Report No. 52798005, “Management of the International Merchant Purchase
Authorization Card, 43d Airlift Wing, Pope AFB NC,” December 22, 1997.

227. Report No. 50798003, “International Merchant Purchase Authorization Card
Program, 185th Fighter Wing, Iowa Air National Guard, Sioux Gateway Airport,
Sergeant Bluff IA,” December 22, 1997.

228. Report No. 50797028, “International Merchant Purchase Authorization Card
Program, 28th Bomb Wing, Ellsworth AFB SD,” September 19, 1997.

229. Report No. 22097021, “Management of Controls Over the Use of the
International Merchant Purchase Authorization Card, 15th Air Base Wing, Hickam
AFB HI,” August 11, 1997.



                                    34
230. Report No. 51997018, “Management of the International Merchant Purchase
Authorization Card, 5th Bomb Wing, Minot AFB ND,” July 17, 1997.

231. Report No. 42597042, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, Warner Robins Air Logistics
Center, Robins AFB GA,” May 23, 1997.

232. Report No. 22097011, “Management of Controls Over the Use of the
International Merchant Purchase Authorization Card, 635th Air Mobility Support
Squadron, Hickam AFB HI,” April 14, 1997.

233. Report No. 41097022, “Controls Over the Use of International Merchant
Purchase Authorization Cards, Brooks AFB TX,” April 1, 1997.

234. Report No. 50697004, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 911th Airlift Wing, Pittsburgh
International Airport, Air Reserve Station, Coraopolis PA,” March 20, 1997.

235. Report No. 52097011, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, 139th Airlift Wing, St Joseph Air
National Guard MO,” March 17, 1997.

236. Report No. 40397019, “International Merchant Purchase Authorization Cards,
325th Fighter Wing, Tyndall AFB FL,” March 17, 1997.

237. Report No. 52797011, “Management of the Base Tool Control and Purchasing
Program, 20th Fighter Wing, Shaw AFB SC,” March 14, 1997.

238. Report No. 50297011, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 89th Airlift Wing, Andrews AFB
MD,” February 19, 1997.

239. Report No. 42597017, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 116th Bomb Wing, Robins AFB
GA,” February 7, 1997.

240. Report No. 42597016, “Reserve Unit Local Purchases, Headquarters Air Force
Reserve, Robins AFB GA,” February 6, 1997.

241. Report No. 52197012, “Review of Revenue and Operating Expenses, Fund
Control Process, Fiscal Year 1996, Air Force Consolidated Financial Statements, 6th
Air Refueling Wing, MacDill AFB FL,” January 3, 1997.

242. Report No. 51297018, “Management of the International Merchant Purchase
Authorization Card Program, 130th Airlift Wing, Charleston WV,” December 31,
1996.

243. Report No. 51697004, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 42d Air Base Wing, Maxwell
AFB AL,” December 26, 1996.



                                    35
244. Report No. 41097005, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, San Antonio Air Logistics
Center, Kelly AFB TX,” December 20, 1996.

245. Report No. 26197009, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 140th Wing, Buckley Air
National Guard Base, Aurora CO,” December 3, 1996.

246. Report No. 29097006, “Management of International Merchant Purchase
Authorization Cards for Tama Hills Recreation Area, 374th Airlift Wing, Yokota Air
Base, Japan,” November 22, 1996.

247. Report No. 51197008, “Management of the International Merchants Purchase
Authorization Card Program, 48th Fighter Wing, Royal Air Force Lakenheath,
United Kingdom,” November 20, 1996.
248. Report No. 21997006, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 141st Air Refueling Wing,
Fairchild AFB WA,” November 15, 1996.

249. Report No. 52197006, “Review of Revenue and Operating Expenses, Fund
Control Process, Fiscal Year 1996 Air Force Consolidated Financial Statements,
Defense Accounting Office, MacDill AFB FL,” November 12, 1996.

250. Report No. 50297007, “Review of the International Merchant Purchase
Authorization Card Program, 11th Wing, Bolling AFB DC,” November 12, 1996.

251. Report No. 40597009, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, Ogden Air Logistics Center, Hill
AFB UT,” November 12, 1996.

252. Report No. 27097003, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 82d Training Wing, Sheppard
AFB TX,” November 6, 1996.

253. Report No. 51097004, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 81st Training Wing, Keesler
AFB MS,” November 5, 1996.

254. Report No. 40297003, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 452d Air Mobility Wing, March
Air Reserve Base CA,” November 5, 1996.

255. Report No. 40597007, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, 419th Fighter Wing, Air Force
Reserve Stations, Hill AFB UT,” October 24, 1996.

256. Report No. 40397004, “Followup Audit Controls Over the Use of
International Merchants Purchase Authorization Cards, 16th Special Operations
Wing, Hurlburt Field FL,” October 24, 1996.



                                    36
257. Report No. 50997001, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, 319th Air Refueling Wing,
Grand Forks AFB ND,” October 22, 1996.

258. Report No. 41597002, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, Sacramento Air Logistics Center,
McClellan AFB CA,” October 22, 1996.

259. Report No. 24097003, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchase, 62d Airlift Wing, McChord AFB
WA,” October 22, 1996.

260. Report No. 40597004, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, 84th Radar Evaluation Squadron,
Hill AFB UT,” October 8, 1996.
261. Report No. 21997003, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 92d Air Refueling Wing,
Fairchild AFB WA,” October 7, 1996.

262. Report No. 51297003, “Controls Over the Use of the International Merchants
Purchase Authorization Cards for Small Purchases, 192d Fighter Wing, Richmond
International Airport, Sandston VA,” October 4, 1996.

263. Report No. 51597001, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 188th Fighter Wing, Air National
Guard, Fort Smith AR,” October 1, 1996.

264. Report No. 40597002, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, 368th Recruiting Squadron, Hill
AFB UT,” October 1, 1996.

265. Report No. 20996026, “Management of the International Merchant Purchase
Authorization Card Program, 162d Fighter Wing, Air National Guard, Tucson
International Airport AZ,” September 19, 1996.

266. Report No. 26096036, “Controls Over the Use of International Merchants
Purchase Authorization Cards for Small Purchases, 509th Bomb Wing, Whiteman
AFB MO,” September 16, 1996.

267. Report No. 26596069, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 434d Air Refueling Wing,
Grissom Air Reserve Base IN,” September 12, 1996.

268. Report No. 44596062, “Controls Over the Use of International Merchant
Purchase Authorization Cards for Small Purchases, 910th Airlift Wing, Air Force
Reserve, Youngstown-Warren Regional Airport, Vienna OH,” August 27, 1996.

269. Report No. 90496038, “International Merchant Purchase Authorization Card
Program Management, 354th Fighter Wing, Eielson AFB AK,” August 9, 1996.



                                    37
270. Report No. 90496030, “Management of the Combat Oriented Transportation
Supply Organization, 354th Fighter Wing, Eielson AFB AK,” June 7, 1996.

271. Report No. 26096025, “Management of Hazardous Materials, 155th Air
Refueling Wing, Lincoln Air National Guard NE,” June 7, 1996.

272. Report No. 42596041, “Management of Hazardous Materials, 94th Airlift
Wing, Dobbins Air Reserve Base GA,” May 22, 1996.

273. Report No. 93496026, “Controls Over International Merchant Purchase
Authorization Cards, 35th Fighter Wing, Misawa Air Base, Japan,” May 7, 1996.

274. Report No. 26596049, “Management of the International Merchant Purchase
Authorization Card Program, Headquarters Air Mobility Command, Scott AFB IL,”
April 23, 1996.
275. Report No. 26596048, “Management of the International Merchant Purchase
Authorization Card Program, Headquarters Air Mobility Command Communications
Directorate, Scott AFB IL,” April 22, 1996.

276. Report No. 44596041, “Controls Over the Use of International Merchants
Purchase Authorization Card for Small Purchases, Aeronautical Systems Center,
Wright-Patterson AFB OH,” April 11, 1996.

277. Report No. 91296011, “Management of Hazardous Materials, 944th Fighter
Wing, Luke AFB AZ,” April 5, 1996.

278. Report No. 93296012, “Management of the International Merchant Purchase
Authorization Card Program, 30th Space Wing, Vandenberg AFB CA,” March 13,
1996.

279. Report No. 93296011, “Management of the International Merchant Purchase
Authorization Card Program, 14th Air Force, Vandenberg AFB CA,” February 29,
1996.

280. Report No. 26596038, “Management of the International Merchant Purchase
Authorization Card Program, 375th Airlift Wing, Scott AFB IL,” February 29, 1996.

281. Report No. 51296026, “Review of the International Merchant Purchase
Authorization Card Program, Keflavik NAS, Iceland,” February 14, 1996.

282. Report No. 41096021, “The International Merchant Purchase Authorization
Card Program, 76th Air Base Wing, San Antonio Air Logistics Center, Kelly AFB
TX,” January 30, 1996.

283. Report No. 21396010, “Management of the International Merchant Purchase
Authorization Card Program, 7th Wing, Dyess AFB TX,” January 26, 1996.

284. Report No. 26596019, “Management of the International Merchant Purchase
Authorization Card Program, 440th Airlift Wing, Air Force Reserves, Milwaukee
WI,” January 23, 1996.


                                    38
    285. Report No. 26596014, “Management of the International Merchant Purchase
    Authorization Card Program, Air Weather Service, Scott AFB IL,” January 8, 1996.

    286. Report No. 51296019, “Review of the International Merchant Purchase
    Authorization Card Program, 1st Fighter Wing, Langley AFB VA,” January 5, 1996.

    287. Report No. 41096012, “Review of International Merchant Purchase
    Authorization Card, Aerospace Equipment Management Directorate, San Antonio
    Air Logistics Center, Kelly AFB TX,” December 18, 1995.

    288. Report No. 41096009, “Review of International Merchant Purchase
    Authorization Card, Technology and Industrial Support Directorate, San Antonio Air
    Logistics Center, Kelly AFB TX,” December 11, 1995.

    289. Report No. 26596009, “Management of the International Merchant Purchase
    Authorization Card Program, Air Force Command, Control, Communications and
    Computer Agency, Scott AFB IL,” December 11, 1995.

    290. Report No. 90696011, “Controls Over the Use of International Merchant
    Purchase Authorization Cards, 341st Missile Wing, Malmstrom AFB MT,”
    December 11, 1995.

    291. Report No. 93096010, “Management of International Purchase Authorization
    Cards, 60th Air Mobility Wing, Travis AFB CA,” October 30, 1995.

    292. Report No. 40396005, “Followup Audit Control Over the Use of
    International Merchants Purchase Authorization Cards for Small Purchases, Air
    Force Development Test Center, Eglin AFB FL,” October 27, 1995.

    293. Report No. 51296003, “Review of the International Merchant Purchase
    Authorization Card Program, Headquarters Air Combat Command, Langley AFB
    VA,” October 10, 1995.

    294. Report No. 26196001, “Review of Base Supply Procurement and Inventory,
    21st Space Wing, Peterson AFB CO,” October 2, 1995.

Defense Commissary Agency Internal Review Office
    295. Report No. 98-18, “Internal Review of IMPAC Program, Headquarters
    and Field Operating Activities,” December 27, 1999. Credit card charges were
    not reconciled to official invoices prior to certification for payment, and weaknesses
    were identified in the areas of property accountability, purchase costs, required
    sources of supplies and services, and shipping charges. The report recommended
    that employees compare their credit card bills to supporting documents prior to
    certification for payment. The report also recommended the Defense Commissary
    Agency issue guidance requiring all credit card purchases be necessary, prudent, and
    made in accordance with Federal Acquisition Regulation requirements, and remind
    cardholders that hand receipts are to be used to ensure adequate safeguarding of
    assets. Management concurred with the recommendations.



                                          39
Inspector General, Defense Information Systems Agency
     296. Report No. 2001-02, “Audit of the Commercial Purchase Card Program,”
     October 31, 2000. Policies and procedures relating to purchase card program
     oversight, communication of procedures, and split purchases needed improvement.
     Weaknesses were also identified in the approving, paying, and accounting for
     purchases. The report recommended that the contracting organization conduct
     periodic compliance reviews of purchase card transactions, and mandatory refresher
     training for cardholders and approving officials. In addition, the report
     recommended that future revisions of the purchase card procedures be coordinated
     with the deputy directors, commanders, and chiefs of field activities. The report also
     recommended maintaining supporting documentation for training completed and all
     purchase card transactions so that it is available for examination. Management
     concurred with the recommendations.

     297. Report No. 99-A06, “Governmentwide Commercial Purchase Card,”
     August 11, 1999. Controls over purchase card transactions for cardholders were not
     implemented properly, and purchases were not authorized and recorded properly.
     The report recommended amending the commercial purchase card procedures,
     amending contracting officer warrants issued to purchase cardholders, and
     performing regular purchase card compliance reviews. Management concurred with
     the recommendations.

Defense Logistics Agency Internal Review Office
     298. Report No. C0106, “IMPAC Card Purchases and Follow-up Review on
     Audit No. R9908,” September 2001. Purchase card regulations and guidance were
     inadequate in the area of unauthorized purchases. Cardholders made unauthorized or
     questionable purchases, and the list of the approving officials and purchase
     cardholders was not accurate. The report recommended that clear guidance on
     allowable and not allowable purchases be developed, and the listing of approving
     officials and cardholders be updated. Management disagreed with recommendations
     stating that developing clear guidance was unrealistic and impractical, and that
     changes to the approving official and cardholder list are usually made in a timely
     manner.

     299. Report No. 66-01, “Non-Appropriated Funds I.M.P.A.C. Credit Card
     Purchases,” September 10, 2001. All purchases reviewed were appropriate and
     within established limits. However, some property purchases were not included on
     the inventory listing when required. Cardholders purchased items such as artwork,
     toasters, televisions, and mirrors that should have been included on the inventory
     listing to guard against pilferage. The report made recommendations to ensure
     pilferable property is added to the property control book and to request funding for
     future training requirements. Management concurred with the recommendations.

     300. Report No. 64-01, “DSCC-NAF Convenience Checks for 2nd and 3rd
     Quarters of FY 01,” August 27, 2001. The convenience check holder was adhering
     to policy. The report had no findings or recommendations.



                                           40
301. Report No. 32-01, “DSCC-NAF Convenience Checks for 1st Quarter of
FY 01,” February 16, 2001. The convenience check holder was adhering to policy;
however, some information needed to be added to the check register. The report
recommended that the check register be revised to include columns for fund
availability and the date the check cleared the bank. Management concurred with the
recommendations.

302. Report No. 16-01, “DSCC Purchase Card Program Internal Controls,”
February 8, 2001. The agency program coordinator was exceptional in managing
the internal controls of the purchase card program. However, 16 cardholders did not
use their purchase card during FY 2000 raising the issue of a valid need for the card.
The approving official was responsible for conducting periodic reviews to ensure
each cardholder had a valid need to retain the card. The report recommended that
annual reviews of purchase cardholders begin with new cardholders. Management
concurred with the recommendation.
303. Report No. 10-01, “DSCC-NAF Convenience Checks,” November 7, 2000.
The convenience check holders were adhering to policy. The report had no findings
or recommendations.

304. Report No. 55-00, “Convenience Checks,” October 5, 2000. The
convenience check holder was adhering to policy. The report made no findings or
recommendations.

305. Report No. 44-00, “Non-Appropriated Funds I.M.P.A.C. Credit Card
Purchases,” August 11, 2000. Cardholders were making allowable purchases;
however, documentation was not always retained, sales tax was sometimes paid, and
purchases were sometimes split to stay within the purchase limit. The report made
recommendations to ensure accountable property is added to the inventory listing;
emphasize the importance of dating documents, and take appropriate action to ensure
that cardholders adhere to the documentation and authorization requirements for
purchases. Management agreed with the recommendations.

306. Report No. 37-00, “Convenience Checks,” May 3, 2000. All convenience
check purchases were allowable and within established limits. The report made no
recommendations.

307. Report No. R9908, “A Follow-up Review on Audit Number C99802 and a
Review of the Purchase Card Program at the Defense Supply Center Richmond,
Virginia,” February 2000. Officials were weak in preventing unauthorized
purchases, and purchase card applications were submitted without a fund citation. In
addition, there was a slight decrease in compliance of three internal control areas
(signing account statements, retaining cardholder appointment letters, and
safeguarding purchase cards). The report recommended that spot checks of
cardholder purchases be conducted to ensure that unauthorized or unneeded
purchases are not made, and purchase card applications not be submitted without a
fund citation. The report also recommended cardholders sign their account statement
and retain their appointment letters. In addition, the report recommended that the
purchase card program be made a part of the Management Control Plan.
Management concurred with the recommendations.



                                      41
308. Project No. DDAI-9905F, “Review of Management Controls for DLSC and
DASC Operations at Camp Smith, Hawaii,” November 18, 1999. Controls were
weak in the purchase approval and certification and the property accountability
areas. The report recommended the use of the certification statements be
implemented. The report also recommended that an accountable property officer be
appointed, an inventory be completed, and procedures be established to provide
information related to credit card purchases to the accountable property officer.
Management comments did not address the recommendations but the Internal
Review Office stated that the deficiencies would be resolved through reassignments
and training.

309. Report No. DDC 99-17, “Audit of the Defense Distribution Depot San
Joaquin, CA, Commercial Purchase Card Program,” September 22, 1999.
Procedures for processing and approving credit card purchases needed improvement.
Specifically, credit card statements were not signed or processed timely, purchase
documentation was not retained, and training was not provided. The report
recommended that cardholders record the date account statements are received and
sign all pages of the statement as part of the certifications process, ensure
cardholders retain evidence of purchases and receipts, and ensure all uses receive
credit card training. Management concurred with the recommendations.

310. Memorandum Report, “Review of Management Controls Over the
Government Purchase Card in the Office of the Comptroller,” September 8,
1999. The Office of the Comptroller had adequate controls over credit card usage.
The report made no findings or recommendations.

311. Report No. 56-99, “Credit Card Review DSCC-A-Deer Creek, Columbus
OH,” May 6, 1999. The Defense Supply Center, Columbus, inappropriately paid
$133.81 for breakfast and snacks for eight people attending an internal off-site
meeting using the credit card. Reimbursement for the inappropriate charge was
made to the U.S. Treasury. There were no recommendations in this report.

312. Report No. 11-99, “I.M.P.A.C. Credit Card Purchases,” April 13, 1999.
Credit card documentation improved, there were no split purchases, all purchases
were within the purchase limits, and interest penalties declined significantly.
However, there was one instance of an unallowable purchases and improvement was
needed in the area of proper certification of statements. There were no
recommendations in this report.

313. Project No. IR-9-3, “Report on the Review of Credit Card Purchases at the
Defense Supply Center Philadelphia, Philadelphia, PA” March 9, 1999.
Equipment items purchased with the credit cards were not bar coded and recorded in
the inventory records. The report recommended that all credit cardholders review
prior year purchases to ensure those items are documented on the property records.
Management concurred with the recommendation.

314. Report No. IR-73-98, “I.M.P.A.C. Estimated Interest Penalties, Columbus
OH,” December 10, 1998. IMPAC Card Services did not properly record Defense
Supply Center, Columbus interest payments. The report recommended that the
Interest Payment Document be clearly marked as to whether the payments are for
interest or merchandise to ensure future payments are properly charged to principal
or interest penalty amounts. Management concurred with the recommendation.

                                     42
315. Report No. C9802, “Internal Controls Governing the Use of the
International Merchant Purchase Authorization Card for Commercial Micro-
Purchases,” July 1998. Adequate internal controls were established but were not
followed. Account statements were not properly certified, appointment letters not
retained, purchases were split to stay under the limit, and additional training was
needed. In addition, no effective audit function was built into the program. The
report recommended all cardholders and approving officials be notified to properly
certify account statements and retain appointment letters. The report also
recommended that clarification of the maximum spending limit and the term
“splitting” as it relates to purchase cards be sent to all cardholders, and training be
offered to cardholders. Management concurred with the recommendations.

316. Report No. 98-06, “Review of International Merchant Purchase
Authorization Card,” July 6, 1998. Internal controls needed strengthening.
Cardholders and approving officials did not sign bank statements, documentation
was not maintained for all purchases, and some purchases were questionable. The
report recommended requiring cardholders and approving officials to properly certify
the account statements, maintain documentation for all purchases, and ensure items
are not available in Base Operations Support System before using the credit card to
purchase them. Management concurred with the recommendations.

317. Report No. DDRE 97-08, “Audit of the Commercial Purchase Card
Program at Defense Distribution Region East,” November 24, 1997.
Management controls over the purchase card program were generally effective;
however, the following areas needed improvement: account setup and maintenance
procedures, account statement timeliness, cardholder purchasing, recording, and
reconciliation procedures, and rate of participation in the credit card program. The
report recommended that forms be developed to appoint cardholders and establish or
change cardholder and office spending limit; emphasize through training and
correspondence the importance of prompt certification, approval, and transmission of
the account statement; strengthen internal controls over purchasing, recording and
reconciliation of purchase card data; and encourage wider participation in the
purchase card program. Management concurred with the recommendations.

318. Report No. 59-97, “I.M.P.A.C. Credit Cards Assigned to DSCC and
DOCCR, Columbus OH,” September 3, 1997. There were four cases when
purchases were split in order to stay within the single purchase dollar limit.
Cardholders were not processing and certifying their account statements within the
required timeframe. The report recommended that organizations implement controls
to ensure that the account reconciliation and certification process are completed in a
timely manner. Management concurred with the recommendation.

319. Report No. 96-10, “Review of I.M.P.A.C. Credit Card Procedures,” 1996.
Cardholders used outdated regulations, made questionable purchases, paid sales tax
on purchases, were overcharged for some items, and did not maintain proper
documentation. In addition, security over credit cards was lacking and bank
statements were not signed as required by the regulation. The report recommended
that cardholders use current regulations, ensure items are not available in Base
Operations Support System, use tax exempt numbers to prevent being charged sales
tax, review receipts at time of purchase to prevent overcharges, and ensure all
purchases are accompanied by a receipt for proof of purchase. The report also


                                       43
    recommended that credit cards be signed and properly secured and that bank
    statements be signed to indicate they were reviewed. Management concurred with
    most of the recommendations.

    320. Project No. 96-7A, “Review of Controls Over Purchase Cards,” August 12,
    1996. Overall, the Defense Logistics Agency Administrative Support Center had
    adequate controls over the purchase card program. However, areas needing
    improvement include administering the program, properly assigning approving
    official, ensuring sales tax is not paid, and establishing the purchase card program as
    an assessable unit under the Internal Management Control Program. The report
    recommended that remote access be established to the bank’s computer system,
    establish a fee recovery plan, realign one cardholder to another approving official,
    distribute the tax exempt letter to all cardholders, and establish the purchase card
    program as an assessable unit for self-evaluation. Management concurred with the
    recommendations.

Assistant Secretary of the Army (Financial Management and
  Comptroller) Internal Review Office
    The Assistant Secretary of the Army (Financial Management and Comptroller)
    Internal Review Office provides a synopsis of its significant internal review reports
    on its home page at http://www.asafm.army.mil/fo/fod/ir/prir/synopsis/synopsis.asp

    321-326. Synopsis of Significant Internal Review Reports FY 01–Volume I.
    Six reports identified problems with lack of management oversight, split purchases,
    unauthorized purchases, account statements not signed, account statements not
    reconciled, lack of training, and interest penalties charged.

    327-331. Synopsis of Significant Internal Review Reports FY 00–Volume II.
    Five reports identified problems with lack of training for approving officials,
    unauthorized purchases, lack of management oversight, higher graded staff
    performing inspections of cardholders, and a potential fraud case.
    332-336. Synopsis of Significant Internal Review Reports FY 00–Volume I.
    Five reports identified problems with lack of management oversight, property
    accountability, lack of training, late account submissions, and late payments.

    337-345. Synopsis of Significant Internal Review Reports FY 99–Volume II.
    Nine reports identified problems with property accountability, funding obligations,
    incomplete documentation, unauthorized purchases, splitting purchases, excessive
    credit limits, limited oversight, approving officials not reviewing account statements,
    and inadequate training.

    346-355. Synopsis of Significant Internal Review Reports FY 99–Volume I.
    Ten reports identified problems with property accountability, not maximizing card
    use, splitting purchases, documentation, unauthorized payments, and incomplete
    account reconciliation and certification.




                                          44
       356-363. Synopsis of Significant Internal Review Reports FY 98–Volume II.
       Eight reports identified problems with not maximizing card use, account setup,
       inadequate guidance, incomplete documentation, property accountability, separation
       of duties, accounts not reconciled or certified, and lack of management oversight.

       364-369. Synopsis of Significant Internal Review Reports FY 98–Volume I.
       Six reports identified problems with splitting purchases, unauthorized purchases,
       improper recordkeeping, incomplete documentation, and property accountability.

       370-375. Synopsis of Significant Internal Review Reports FY 97–Volume II.
       Six reports identified problems with unauthorized purchases, splitting purchases,
       incomplete documentation, account setup, property accountability, separation of
       duties, lack of training, and lack of management oversight.

       376-377. Synopsis of Significant Internal Review Reports FY 97–Volume I.
       Two reports identified problems with unapproved purchases, incomplete
       documentation, splitting purchases, and accounts not reconciled and certified.

       378-381. Synopsis of Significant Internal Review Reports FY 96–Volume II.
       Four reports identified problems with lack of oversight reviews, lack of guidance,
       exceeding spending limits, and unauthorized purchases.

The following report is For Official Use Only and, therefore, has limited distribution.

382. Defense Logistics Agency, Office of Internal Review, Report No. 00-08,
“Management Controls Over Commercial Purchases at Defense Distribution Depot, Red
River, TX,” June 16, 2000.




                                              45
                                                                                                                                       Appendix C. Matrix of Systemic Issues
        Report       Reconciliation     Administrative    Management     Property       Purchase               Separation
        Number      and Certification     Controls         Oversight   Accountability   Card Use   Purchases    of Duties   Training
                                                         General Accounting Office
     GAO-01-995T           X                  X               X              X                        X                        X
     NSIAD-00-108
     NSIAD-96-138                             X                X             X                        X            X           X
                                               Inspector General, Department of Defense
     D-2000-159
     99-129
     96-201                                                                                X          X
                                                            Army Audit Agency
     AA 01-221
     AA 00-780                                                               X
     AA 00-779
     AA 00-778
     AA 00-777
46




     AA 00-776
     AA 00-775
     AA 00-774
     AA 00-773                                                               X
     AA 00-772                                                               X
     AA 00-771                                                               X
     AA 00-770                                                               X
     AA 00-769                                                               X
     AA 00-768                                                               X
     AA 00-767                                                               X
     AA 00-766                                                               X
     AA 00-194                                                               X                        X                        X
     AA 00-28              X                                   X                                      X                        X
     AA 00-29              X                                   X                                      X                        X
     AA 99-772
     AA 99-168                                                                             X                                   X
     AA 98-358                                                                             X
     AA 98-261                                X                X                           X
     AA 97-58                                                                              X
     AA 96-260             X
     AA 96-227             X                  X                              X             X          X            X
        Report     Reconciliation     Administrative   Management   Property       Purchase               Separation
        Number    and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     AA 96-128                                                                            X      X
     AA 96-46                                                                             X                   X           X
     AA 96-7                                X                                             X      X            X
     AA 96-21
     AA 96-4                                                             X                X      X
     AA 96-3                                                                              X
                                                        Naval Audit Service
     98-0069             X                                 X             X                X      X            X           X
                                             Air Force Audit Agency / Air Force-Wide
     99064007                               X              X                                     X
     96064011            X                  X              X                              X      X
                                            Air Force Audit Agency / Installation-Level
        FY 2001
     DI001036                                                                                    X
     DE001033                                                                                    X                        X
     EL001097            X                                               X                       X
     EO001071
47




     DE001032
     EA001054                                                                                    X                        X
     DR001037                                                                                    X
     EB001061
     WN001053
     WS001073                                                            X                       X
     WH001045            X                                               X                       X
     DW001030            X                  X                                                    X            X
     DE001028
     WR001026
     WR001025            X                  X              X                                     X
     WP001051                                                                                    X
     WS001067                                                            X
     WS001065            X                                               X                       X
     EO001055                                              X
     WS001056            X                                                                       X
     WS001055                                              X
     WM001043                                              X             X                       X
       Report      Reconciliation     Administrative   Management   Property       Purchase               Separation
       Number     and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     DI001025                               X                                                                 X
     EL001065            X                                                                       X
     WS001047                                                            X                       X
     WS001043                                                                                    X
     DE001018                                                                         X
     WP001020                               X
     WM001027                                              X
     WM001026                                                            X
     EB001025                                              X                                     X
     EL001042                                                                                    X                        X
     EB001023                                                                                    X
     WS001016                                                                                    X
     ER001008            X                                 X                                     X
     DI001012            X                  X                                         X
48




     WM001020                                                                                    X
     EL001028
     WN001014                                              X                                     X
     WN001013            X
     WN001012            X
     EL001023                                                                                    X
     WN001011                                                            X
     DW001004                                                                                    X
     EO001005            X                                               X                       X
     DI001004                                              X
     EL001010                                                                                    X
     EO001003            X                                                                       X
        FY 2000
     EO000082                                              X                                     X
     EA000077                                              X                                     X                        X
     WR000032            X                                                                       X
     WP000075                                                            X
     WR000030                                              X                                     X                        X
     WP000069                                              X                                     X                        X
     EB000085
     WS000076            X                                                                       X
       Report    Reconciliation     Administrative   Management   Property       Purchase               Separation
       Number   and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     WN000057                                            X
     EL000120                                            X                                     X
     WN000055                             X                                                    X
     EO000068                             X
     WH000026                                            X                                     X
     DR000036
     DI000032                                                          X
     EO000062                                                                                  X
     EL000097                                                                                  X
     WP000059
     WP000056                                                                                  X
     EL000092                                                                                  X
     EL000091                                            X                                     X
     EA000047                                                          X                       X
     WP000047                                                                                  X
     WP000044                                                                                  X
     EL000068                                                                                  X                        X
     EL000066                                                          X
49




     WH000014                                                                                  X
     DE000016                                                                                               X
     EL000063                                                                                  X
     ER000031                                                                                  X
     DR000014                                                                                               X
     EL000043                                            X                                     X                        X
     WN000019                             X
     WS000019                                                                                  X
     ER000013                                                                                  X
     WM000015          X                                                                       X
     EL000027                                                                                  X
     WP000013                                            X                                     X
     ER000011
     DT000007                                                                                  X
     WS000012          X                                                                       X            X
     WH000004          X                                 X                                     X
     EL000015
       Report     Reconciliation     Administrative   Management   Property       Purchase               Separation
       Number    and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     ER000007                                                                        X
     WS000006                                                           X                                                X
     EL000006                                                                                   X
       FY 1999
     EO099056                                             X                                     X
     EA099066                                             X                                     X
     WM099058           X                                 X                                     X
     DD099016                                                                                   X                        X
     ER099068                                                           X
     DR099034                                                                                   X                        X
     EA099058
     WN099047                                                                        X
     EB099098           X                                                                       X            X
     WR099055                                             X             X                       X
     WN099044                                                           X
50




     WR099052           X                                                                       X
     ER099063                                                                                   X
     WS099046                                                                                   X
     ER099061                                                           X
     EB099090                                                                                   X
     EB099088                                                                                                            X
     WS099041                              X              X                                     X
     ER099051                                             X                                     X
     WS099038
     ER099045                                                                                   X
     EB099076                                                           X                       X
     WN099036                                                                                                            X
     WH099053                                             X                                     X                        X
     WH099051           X                  X                                         X
     DR099022
     EA099044                                                                                   X                        X
     EL099056           X                                 X
     EL099053                                                           X
     EB099064                                             X                          X
     WN099032                                                           X                                                X
       Report    Reconciliation     Administrative   Management   Property       Purchase               Separation
       Number   and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     DE099027
     EB099059          X                                 X                                     X
     DD099008                                            X
     WM099032                                            X                                     X
     WP099024                                                                                                           X
     EL099042                                            X                                     X            X
     EB099055                                            X
     DE099022                                            X                                     X
     WS099023                                            X                                     X
     WH099031                                                          X                       X
     ER099025                                                          X
     DI099024                                                          X
     WN099018          X                                 X                                     X
     WN099017                                                                                  X
     WP099016                                                          X
     WH099017          X                                               X                       X
     WS099018                             X              X
     DT099008                                                          X                       X
51




     WN099016                                                                                  X                        X
     WP099013                                                                                  X
     WN099014
     WH099010          X                  X                                                    X
     DT099007                                            X             X            X          X
     EB099024
     WN099010
     EB099011          X                                 X                                     X
     WN099004                             X              X                                     X
     WR099005                                            X
     EB099010
     EL099009                             X              X                                                              X
     EL099007          X                                                                       X
     WR099002                                            X                                     X
     WH099002                                                                       X
     EB099006
     WS099001          X                                 X             X
       Report      Reconciliation     Administrative   Management   Property       Purchase               Separation
       Number     and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
        FY 1998
     WR098019                               X                                         X          X
     WP098032            X                  X                                                    X            X
     DH098007                                                            X
     EL098045                                                                                    X
     WS098040                                                                         X
     EL098042                                              X                                     X
     WN098024
     WH098009
     WS098030            X                  X              X                                     X
     ER098027                                                                         X
     ER098013            X                  X              X                                                              X
     WS098011                                              X
     EL098002                               X              X
52




     53098015
     40498011                                              X                                     X
     40598041                                              X
     50498009                                              X                                     X
     26198008                               X              X                          X
     51298032                                              X
     40298004                                                                                    X
     42598023            X                                 X             X                       X
     52298012                                                                                                             X
     51298019                                              X
     51298017                               X              X
     52798005            X                  X              X                          X          X
     50798003            X                                 X                          X                       X
        FY 1997
     50797028                               X              X                                     X
     22097021            X                  X                                                    X                        X
     51997018                               X                                                    X
     42597042            X                  X                                         X          X
     22097011                                              X                                     X
     41097022                                              X                                     X
     50697004                               X                                         X
       Report      Reconciliation     Administrative   Management   Property       Purchase               Separation
       Number     and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     52097011            X                                                                       X
     40397019                               X              X                                     X
     52797011
     50297011            X                                 X                                     X                        X
     42597017            X                  X                                         X          X
     42597016                                                                                    X
     52197012                                                                                    X
     51297018                                              X                          X
     51697004                                              X                          X
     41097005                                                                                    X
     26197009                                                            X            X          X
     29097006                               X              X                                     X
     51197008                               X                                         X
     21997006            X                                                            X
     52197006            X                                 X                                     X
     50297007                               X              X                                     X
     40597009                               X                                         X          X
53




     27097003                                              X                                     X
     51097004                               X                                         X
     40297003                               X                                         X          X
     40597007            X                                                                       X
     40397004                               X                                                    X
     50997001            X                  X                                         X
     41597002                               X              X                                     X
     24097003                               X                                         X          X
     40597004            X                                                                       X
     21997003            X                                                            X          X
     51297003                                              X                          X
     51597001            X                                                            X
     40597002            X                                                                       X
        FY 1996
     20996026                                              X                                     X
     26096036            X                                                                       X
     26596069                                                                                                             X
     44596062                               X                                                    X
        Report    Reconciliation     Administrative   Management   Property       Purchase               Separation
        Number   and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     90496038                              X                                                    X
     93496026           X                  X                                                    X
     90496030                                                                                   X
     26096025                                                                                   X
     42596041                                             X                                     X
     26596049           X                  X                            X                       X
     26596048           X                                 X             X                       X
     44596041           X                  X                                                    X
     91296011                                                                                   X
     93296012           X                  X              X                                     X
     93296011                                                           X                       X
     26596038                                             X                                     X                        X
     51296026                              X              X             X                       X                        X
     41096021                                                           X                       X
54




     21396010                                             X                                     X
     26596019                                             X                                     X                        X
     26596014                                                                                   X
     51296019                              X              X                                                              X
     41096012           X                  X                            X                                    X
     41096009                                             X                                     X
     26596009           X                                               X
     90696011           X                  X                                                    X            X           X
     93096010           X                                 X             X                       X            X
     40396005           X                  X                            X                       X                        X
     51296003                              X                            X                       X
     26196001                                                           X                       X
                                       Defense Commissary Agency Internal Review Office
     98-19              X                                               X                       X
                                     Inspector General, Defense Information Systems Agency
     2001-02                                              X                                     X            X           X
     99-A06                                               X                                     X
                                         Defense Logistics Agency Internal Review Office
     C0106                                 X                            X                       X
     66-01                                                X             X                       X
     64-01                                                                                      X
        Report         Reconciliation     Administrative   Management   Property       Purchase               Separation
        Number        and Certification     Controls        Oversight Accountability   Card Use   Purchases    of Duties   Training
     32-01
     16-01                                                     X                                     X
     10-01
     55-00
     44-00                                                                   X                       X
     37-00
     00-08                                                                   X                       X
     R9908                   X                  X                                                    X
     DDAI-9905F                                 X                            X                       X
     99-17                   X                                                                       X                        X
     Memo 9/1999
     56-99                                                                                           X
     11-99                   X                                                                       X
     IR-9-3                                                                  X
     73-98                                      X
     C9802                   X                                                                       X                        X
     98-06                   X                                                                       X
     DDRE 97-08              X                  X                                                                             X
55




     59-97                   X                                                                       X
     96-10                   X                  X                                                    X
     96-7A                                      X                                                    X
                    Assistant Secretary of the Army (Financial Management and Comptroller) Internal Review Office
     FY 01 Vol I             3                                 1                                     3                        1
     FY 00 Vol II                                              3                                     4                        3
     FY 00 Vol I             2                                 1             2                       1                        1
     FY 99 Vol II            1                  2              2             3            1          3                        1
     FY 99 Vol I             1                  1              3             3            2          6            1           1
     FY 98 Vol II            3                  1              2             1            4          7            1           2
     FY 98 Vol I                                               3             2                       5            1
     FY 97 Vol II            1                                 2             1                       2            1           1
     FY 97 Vol I             1                                                                       1
     FY 96 Vol II                               1              2             1                       1
     Total                   88                70             115           79           50         222          22          52
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives
Director, Defense Procurement

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Commissary Agency
Defense Information Systems Agency
Defense Logistics Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs




                                           56
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Members (cont’d)
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          57
Summary Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Joseph P. Doyle
Anella J. Oliva
James D. Madden
Darryl D. Eubanks
Alisha K. Eze
Benita L. Holliman
Erica D. Kimbrough
Tara N. Tucker
Catherine Bird
Ann Thompson
